<html>
<title> - LEGISLATIVE HEARING ON H.R. 4094, TO AUTHORIZE PEDESTRIAN AND MOTORIZED VEHICULAR ACCESS IN CAPE HATTERAS NATIONAL SEASHORE RECREATIONAL AREA, AND FOR OTHER PURPOSES. ``PRESERVING ACCESS TO CAPE HATTERAS NATIONAL SEASHORE RECREATIONAL AREA ACT''; AND OVERSIGHT HEARING ON ``ACCESS DENIED: TURNING AWAY VISITORS TO NATIONAL PARKS.''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





LEGISLATIVE HEARING ON H.R. 4094, ``PRESERVING ACCESS TO CAPE HATTERAS 
 NATIONAL SEASHORE RECREATIONAL AREA ACT''; AND OVERSIGHT HEARING ON 
      ``ACCESS DENIED: TURNING AWAY VISITORS TO NATIONAL PARKS''

=======================================================================

                            LEGISLATIVE AND
                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         Friday, April 27, 2012

                               __________

                           Serial No. 112-108

                               __________

       Printed for the use of the Committee on Natural Resources





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-982 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     Betty Sutton, OH
Tom McClintock, CA                   Niki Tsongas, MA
David Rivera, FL                     John Garamendi, CA
Scott R. Tipton, CO                  Vacancy
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Mark Amodei, NV
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, April 27, 2012...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Couch, John, President, Outer Banks Preservation Association, 
      North Carolina.............................................    24
        Prepared statement on H.R. 4094..........................    25
    Crook, Karl C., President and CEO, Crook and Crook Inc., DBA 
      Crook and Crook Fishing and Marine Supplies................    42
        Prepared statement on Oversight Hearing..................    43
    Curlett, John J., Florida Resident...........................    45
        Prepared statement on Oversight Hearing..................    47
    Diaz-Balart, Hon. Mario, a Representative in Congress from 
      the State of Florida, Oral statement on Oversight Hearing..     7
    Frost, Herbert C., Associate Director, Natural Resource 
      Stewardship and Science, National Park Service, U.S. 
      Department of the Interior.................................     9
        Prepared statement on H.R. 4094..........................    11
        Prepared statement on Oversight Hearing..................    13
    Jones, Hon. Walter B., a Representative in Congress from the 
      State of North Carolina, Oral statement on H.R. 4094.......     4
    Judge, Warren, Chairman, Dare County Board of Commissioners, 
      County of Dare, North Carolina.............................    17
        Prepared statement on H.R. 4094..........................    18
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida.......................................     6
        Prepared statement on Oversight Hearing..................     6
    Wright, Kenneth W., Vice-Chair, Florida Fish and Wildlife 
      Conservation Commission....................................    30
        Prepared statement on Oversight Hearing..................    31

Additional materials supplied:
    List of documents retained in the Committee's official files.    63
                                     


 
LEGISLATIVE HEARING ON H.R. 4094, TO AUTHORIZE PEDESTRIAN AND MOTORIZED 
VEHICULAR ACCESS IN CAPE HATTERAS NATIONAL SEASHORE RECREATIONAL AREA, 
 AND FOR OTHER PURPOSES. ``PRESERVING ACCESS TO CAPE HATTERAS NATIONAL 
  SEASHORE RECREATIONAL AREA ACT''; AND OVERSIGHT HEARING ON ``ACCESS 
           DENIED: TURNING AWAY VISITORS TO NATIONAL PARKS.''

                              ----------                              


                         Friday, April 27, 2012

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:06 a.m., in 
Room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Rivera, Duncan, Grijalva, 
and Holt.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. The Committee will come to order. You just 
heard the gavel bang. The Chair notes the presence of a quorum.
    Under the rules, the opening statements are limited to the 
Chairman and Ranking Member; however, I ask unanimous consent 
to include any Members' opening statements in the hearing 
record if submitted to the clerk by the close of business 
today. And hearing no objections, it will be so ordered.
    The Subcommittee on National Parks, Forests and Public 
Lands is meeting today to hear testimony on how the national 
park visitors are increasingly being denied access to our 
national parks in all defiance of common sense.
    Although we will focus on two examples today, the Biscayne 
National Park in Florida and Cape Hatteras in North Carolina, 
these overly restrictive policies show signs of developing into 
a nationwide problem that may require congressional action to 
correct, which is why today's hearing is both an oversight 
hearing as well as a legislative hearing.
    In our oversight capacity, we will hear from the Park 
Service on a plan by the Biscayne National Park to close a 
popular 10,000-acre area to fishing and further restrict 
activities in other parts of the park. We will also hear from 
the knowledgeable local experts who are intimately familiar 
with the park and can provide insight into the scientific 
issues involved and also tell us what effect the closure will 
have on recreational opportunities and on the local economy.
    The legislative part of the hearing today will look at H.R. 
4094, introduced by our friend, Mr. Jones from North Carolina, 
whose district includes Cape Hatteras.
    This bill will restore reasonable pedestrian and motorized 
access to the Cape Hatteras National Seashore Recreational 
Area. This bill will reinstitute a 2007 Park Service management 
plan that was based on a thorough biological opinion done by 
the U.S. Fish and Wildlife Service to ensure that shorebirds 
and the piping plover and the sea turtles would not be 
jeopardized by park activities.
    Unfortunately, Federal authorities have acquiesced to the 
demands of a lawsuit brought by the environmental activist 
special interest groups for restrictions that go far beyond 
those found needed in the biological opinion. As a result, 
access to one of the top surf fishing spots in this country is 
severely restricted, and many local companies have seen up to a 
50 percent decline in their business.
    So we welcome you here. We look forward to the testimony.
    I now turn to Mr. Grijalva for any opening remarks he may 
have.
    [The prepared statement of Mr. Bishop follows:]

           Statement of The Honorable Rob Bishop, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    The Subcommittee on National Parks, Forests, and Public Lands is 
meeting today to hear testimony on how National Park visitors are 
increasingly being denied access to our nation's parks. Although we 
will focus on two examples today, Biscayne National Park in Florida and 
Cape Hatteras in North Carolina, these overly restrictive policies show 
signs of developing into a nation-wide problem that may require 
Congressional action to correct. That is why today's hearing is both an 
oversight hearing and a legislative hearing.
    In our oversight capacity, we will hear from the Park Service on a 
plan by Biscayne National Park to close a popular 10,000 acre area to 
fishing and further restrict activities in in other parts of the park. 
We will also hear from knowledgeable local experts who are intimately 
familiar with the park and can provide insights into the scientific 
issues involved and also tell us what effect the closure will have on 
recreational opportunities and on the local economy.
    The legislative part of today's hearing will look at H.R. 4094, 
introduced by Mr. Jones whose district includes Cape Hatteras. This 
bill would restore reasonable pedestrian and motorized access to the 
Cape Hatteras National Seashore Recreational Area. This bill would 
reinstitute a 2007 Park Service management plan that was based on a 
thorough Biological Opinion done by the US Fish and Wildlife Service to 
ensure that a shorebird, the piping plover, and sea turtles would not 
be jeopardized by park activities.
    Unfortunately, federal authorities have acquiesced to the demands 
and lawsuits brought by environmental activists for restrictions that 
go far beyond those found needed in the biological opinion. As a 
result, access to one of the top surf fishing spots in the country is 
severely restricted and many local companies have seen a 50% decline in 
business.
    I now turn to Mr. Grijalva for his opening remarks.
                                 ______
                                 

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman.
    Summer vacation for many families is being planned as we 
speak, and if you would listen to those who planned this 
hearing, you would think that there was no way to visit a 
national seashore or park this summer. The last thing people 
want on their beach vacation is conflict. We get enough of 
that, from my experience, with the kids in the backseat.
    The parks are dealing with dueling mandates issued nearly a 
century ago. They constantly have to balance the protection of 
resources with providing recreational access. In the two issues 
we are hearing about today, the issue is that certain people 
don't agree with the balance the Park Service is seeking to 
strike. Never mind the public process and sound science that 
informed the agency; people want to go outside that process and 
have legislators put their finger on the scale.
    In the first case today, we are dealing with a bill that 
overrides years of work done by various organizations to reach 
a sound management plan. Second, we will have an oversight 
hearing on a plan that isn't even finished. Both of these plans 
have sound science supporting the suggestions--something 
everyone may not like, but it is a nonpartisan view.
    I welcome the witnesses here today. I would have liked to 
welcome locals from the Outer Banks communities who have a 
different opinion than those that are here today. 
Unfortunately, those who have spoken out on this issue in town 
have been harassed and in some cases threatened. We ask for 
people to be involved in their government, yet in this 
situation people are ridiculed, have nails put in their 
driveway, and in one case photos were taken inside of a home as 
a threat. What a sad commentary on a situation that should 
involve the entire community.
    Cape Hatteras has over 60 miles of beach with only 9 miles 
closed to resource protection. In our oversight hearing today, 
we are intervening in a public process because we are unhappy 
with the direction of that process. The plan is still a draft, 
and the National Park Service has engaged the community 
throughout this process.
    One witness will testify about children fishing in the 
Biscayne Bay and the challenges with the marine reserve zone. 
Another group wanted to share their scuba diving stories with 
young people and how they see fewer fish each year. It is about 
choices we make and how they affect the future.
    Thank you again to our panelists. I look forward to hearing 
from you.
    And I yield back, Mr. Chairman.
    Mr. Bishop. Thank you.
    [The prepared statement of Mr. Grijalva follows:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    Summer vacation for many families is being planned as we speak.
    If you would listen to those who planned this hearing today, you 
would think that there was no way to visit a national seashore or park 
this summer.
    The last thing people want on their beach vacation is conflict. 
They get enough of that from the kids riding in the back seat of the 
car.
    The parks are dealing with the dueling mandates issued nearly a 
century ago--they constantly have to balance the protection of 
resources with providing for recreational access.
    In the two issues we are hearing about today, the issue is that 
certain people don't agree with the balance the Park Service is seeking 
to strike.
    Nevermind the public processes and sound science that informed the 
agency--people want to go outside of that process and have legislators 
put their finger on the scale.
    In the first case today, we are dealing with a bill that overrides 
years of work done by various organizations to reach a sound management 
plan.
    Second, we will have an oversight hearing on a plan that isn't even 
finished.
    Both of these plans have sound science supporting the suggestions, 
something that everyone may not like, but it is a non-partisan view.
    I welcome the witnesses here today.
    I would have liked to welcome locals from the Outer Banks 
communities who have a different opinion than those here. 
Unfortunately, those who have spoken out on this issue in town have 
been harassed, and in some cases, threatened.
    We ask for people to be involved in their government, yet in this 
situation, people are ridiculed, have nails put in their driveway, and 
in one case, photos were taken inside of a home as a threat. What a sad 
commentary on this situation!
    Cape Hatteras has over 60 miles of beach, with only 9 miles closed 
for resource protection.
    In our oversight hearing today, we are again intervening in a 
public process because some are unhappy with the direction of the 
process.
    The plan is still a draft and the National Park Service has engaged 
the community in the process.
    One witness will testify about children fishing in the Biscayne Bay 
and the challenges with the Marine Reserve Zone. Another group wanted 
to share their scuba diving stories with young people and how they see 
fewer fish each year. It is about choices that we make and how they 
affect the future.
    I have letters of support to submit for the record on both bills.
    Thank you, again, to our panelist. I look forward to hearing from 
you all.
                                 ______
                                 
    Mr. Bishop. We will now hear from our first panel, which 
consists of our colleagues: first, Representative Jones from 
North Carolina, who will talk about H.R. 4094; then our two 
friends from Florida, who will talk about what is happening in 
the Biscayne area.
    I would invite all three of you, if you wish, to stay with 
us for the entire testimony and be part of the panel. And if 
anyone wishes to be part of the panel, I would ask unanimous 
consent that they be allowed to join us up here for as long as 
they wish to stay.
    Seeing no objection, we are OK.
    Now, realizing I have often made that offer to friends who 
have come here to testify and I have yet to have anyone accept 
that offer, if you decide to testify and go, I will take it 
personally and I will remember it for a hell of a long time.
    But having said that, you all know the drill. You have 5 
minutes for oral presentations. You have the clock in front of 
you. Yellow is the light that means you have 1 minute left, and 
red is the time has expired.
    So, Congressman Jones, we will turn the 5 minutes over to 
you.

  STATEMENT OF THE HON. WALTER B. JONES, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Mr. Chairman, thank you and the Ranking Member 
and Committee members for giving me an opportunity to talk 
about H.R. 4094.
    This bill is about jobs, it is about taxpayers' right to 
access the recreational areas they own, and it is about 
restoring balance and common sense to Park Service management. 
H.R. 4094 would overturn a final rule implemented by the 
National Park Service in mid-February as well as a 2008 United 
States District Court order consent decree. The rule and the 
consent decree excessively restrict taxpayers' access to Cape 
Hatteras National Recreational Area, and they are unnecessary 
to protect the wildlife.
    H.R. 4094 would reinstitute the Park Service's 2007 interim 
management strategy to govern vista access and species 
protection at Cape Hatteras. The interim strategy was backed by 
a 113-page biological opinion issued by the United States Fish 
and Wildlife Service which found that it would not jeopardize 
piping plover, sea turtles, or other species of concern.
    In addition to providing adequate protection for wildlife, 
H.R. 4094 would give taxpayers more reasonable access to the 
lands they own. It would reopen the 26 miles of beach that are 
now permanently closed to motorized beach access and give 
seashore managers flexibility to implement more balanced 
measures that maximize both recreational access and species 
protection. By doing so, the bill would reverse the significant 
job loss and economic decline that Hatteras Island has 
experienced since the consent decree cut off access to many of 
the most popular areas of the seashore.
    To give you an idea of how bad it is, I would like to 
submit a collection of notarized affidavits from Hatteras 
Island business owners.
    Hal Lester of Buxton states that his restaurant has seen a 
total loss of 50 percent of business since the consent decree. 
``Previously, I had a staff of up to 12 people. Now our 
workforce is half that size, and we struggle to survive.''
    Motel owner Jackie Gray of Buxton states that ``during the 
first year under the consent decree, we experienced a sudden 50 
percent drop in business from the preceding year. This year, my 
business is down an additional 65 percent. Before the consent 
decree, my business employed six people. Because of the 
closure, we now have only two employees. Our 53-year-old 
business is now in jeopardy.''
    Mr. Chairman and Ranking Member, the bottom line here is 
that the Federal Government is unnecessarily blocking the 
public from a national seashore created for their recreation, 
and, in doing so, it is destroying jobs. We can fix this 
problem by enacting H.R. 4094, and there is broad bipartisan 
public support for doing so.
    I am grateful that North Carolina Senators Richard Burr and 
Senator Kay Hagan came together yesterday to jointly introduce 
a Senate companion of H.R. 4094. The bill is also supported by 
a wide variety of national sportsmen and fishing groups, 
including the American Sportfishing Association, Recreational 
Fishing Alliance, Center for Coastal Conservation, Coastal 
Conservation Association, Congressional Sportsmen's Foundation, 
and International Game Fish Association. These groups and many 
others have signed letters supporting H.R. 4094, and I would 
like to include those in the record.
    Mr. Chairman, this is a good bill. It is urgently needed, 
and I urge the Subcommittee to quickly take action to approve 
it.
    With that, before closing, Mr. Chairman and Ranking Member, 
I would like to say: The Republicans talk about jobs; the 
Democrats talk about jobs. Let's save the economy of Dare 
County.
    And, with that, I yield back the balance of my time.
    Mr. Bishop. I thank the gentleman.
    Mr. Bishop. If you will provide those other letters and 
supporting documents, we will include those in the record, 
without objection.
    All right, let's turn to our good friends from Florida. The 
gentlelady from Florida, to talk about this particular issue, 
is going to be recognized for 5 minutes, if you would.

STATEMENT OF THE HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Ros-Lehtinen. Thank you very much, Chairman Bishop, 
Ranking Member Grijalva, Mr. Rivera, and Dr. Holt. Thank you so 
much for the opportunity to speak before you today.
    Biscayne National Park is vital to my constituents, for 
their livelihoods as much as for their own recreation. Since 
the park announced that it would update its general management 
plan, I have heard from numerous anglers and boaters about 
their concerns that this magnificent resource might not remain 
truly accessible.
    Just this past Monday, I sat down with my congressional 
colleagues David Rivera and Mario Diaz-Balart to discuss with 
Superintendent Mark Lewis the five alternative proposed general 
management plans. Alternative 4 might turn out to be the 
preferred framework of park managers. Following this meeting, I 
asked several members of our South Florida community who are 
heavily involved with Biscayne National Park to share their 
thoughts on what Alternative 4 would mean to them were it to be 
implemented. The responses I received offered strong objections 
to the proposed plan.
    All were unified in opposing the controversial proposed 
marine reserve zone, which would close all fishing, that they 
say is overly restrictive. The marine reserve zone would be 
over 10,000 acres or 7 percent of the park's marine waters and 
is almost 30 percent of the park's reef tract.
    The loss of fishing opportunities and their associated 
economic impacts would be significant on our community. These 
park users consider the closures of the most popular and 
productive fishing waters draconian and based on flimsy, 
outdated or simply feel-good speculation of perceived benefits.
    Another common theme that emerged was disbelief that the 
park chose to disregard the recommendations of the Florida Fish 
and Wildlife Conservation Commission, which cooperatively 
manages the park's fishing resources, and the park's own 
Fisheries Management Plan Stakeholders Working Group.
    We all share the same goal of ensuring healthy, vibrant, 
and sustainable park and fisheries. With careful management, 
our beloved Biscayne National Park will remain a jewel of our 
community and available for generations of visitors to respect 
and enjoy. I expect that this hearing will help preserve the 
unique culture surrounding south Florida's water-centered way 
of life while also protecting our environment and maintaining 
public access to the park's waters.
    Thank you to all the Members, and I yield back.
    Mr. Bishop. Thank you. I appreciate your testimony again.
    [The prepared statement of Ms. Ros-Lehtinen follows:]

            Statement of The Honorable Ileana Ros-Lehtinen, 
         a Representative in Congress from the State of Florida

    Biscayne National Park is vital to my constituents, for their 
livelihoods as much as their own recreation.
    Since the park announced that it would update its General 
Management Plan, I have heard from numerous anglers and boaters about 
their concerns that this magnificent resource might not remain truly 
accessible.
    Just this past Monday, I sat down with my Congressional colleagues 
David Rivera and Mario Diaz-Balart to discuss with Superintendent Mark 
Lewis five alternative proposed General Management Plans.
    Alternative #4 might turn out to be the preferred framework of park 
managers.
    Following this meeting I asked several members of our South Florida 
community who are heavily involved with Biscayne National Park to share 
their thoughts on what Alternative #4 would mean to them if 
implemented.
    The responses I received offered strong objections to the proposed 
plan.
    And all were unified in opposing the controversial proposed Marine 
Reserve Zone--which could close all fishing--that they say is overly 
restrictive.
    The MRZ would be over 10 thousand acres, or 7% of the park's marine 
waters, and is almost 30% of the park's reef tract.
    The loss of fishing opportunities, and their associated economic 
impacts, would be significant.
    These park users consider the closure of the most popular and 
productive fishing waters draconian and based on flimsy, outdated and 
or simply feel-good speculation of perceived benefits.
    Another common theme that emerged was disbelief that the Park chose 
to disregard the recommendations of the Florida Fish and Wildlife 
Conservation Commission, which cooperatively manages the park's 
fisheries resources, and the park's own Fishery Management Plan 
Stakeholder Working Group.
    We all share the same goal of ensuring healthy, vibrant, and 
sustainable park and fishery.
    With careful management our beloved Biscayne National Park will 
remain a jewel of our community and available for generations of 
visitors to respect and enjoy.
    I expect that this hearing will help preserve the unique culture 
surrounding South Florida's water-centered way of life, while also 
protecting our environment and maintaining public to access the park's 
waters.
                                 ______
                                 
    Mr. Bishop. Representative Diaz-Balart, if you would like 
to take 5 minutes.

 STATEMENT OF THE HON. MARIO DIAZ-BALART, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Diaz-Balart. Thank you very much. Mr. Chairman, thank 
you, and Mr. Ranking Member and members of this Committee. I 
think my colleague from South Florida really explained it as 
well as anybody could, and so I will just add--I will skip my 
statement and just add some points to it.
    Look, a couple things. This is a park that is highly 
utilized. It is right next to a large urban area. By the way, I 
speak to you--we speak to you not only as Members of Congress 
but as those who use that park. It is a park that is used by 
thousands and thousands of people for fishing, for scuba 
diving, for bird watching, et cetera.
    And I think just one of the things that has to be pointed 
out: Nobody cares more about the future of that area, about the 
health of that area than those that use it, than those that 
benefit from it, than Floridians. My colleague mentioned the 
Florida Fish and Wildlife Commission. This is a commission, 
these are individuals who dedicate their lives, frankly, to 
protect the pristine areas of Florida. And Florida is very 
aggressive in doing so.
    So when we now see that--there have been meetings for a 
long, long time with the Florida stakeholders. And when this 
recommendation comes out, basically pretty much unanimously 
almost, all of those that were in the negotiations, that were 
in the conversation are, frankly, highly dissatisfied. Why are 
they dissatisfied? Because they believe that their thoughts, 
their recommendations, their ideas in order to protect this 
area without being overly intrusive were, frankly, just 
disregarded. And I repeat, nobody cares more about that area 
than those that live there, that utilize that park. That is 
number one.
    Number two is, you know, Florida, the entire U.S. economy 
is struggling. I don't have to tell you all that. Florida's is 
struggling more than the rest of the Nation. One of the largest 
industries that we have, one of the most important industries 
is this, is recreation, is fishing, is boating and boat 
manufacture.
    Now, I will be honest with you, if you own a 75-foot boat 
or a 60-foot boat, you can go anywhere. But if you have a small 
one, where do you go? You go to the accessible, wonderful 
pristine places that are right next-door because that is what 
you can do if you have a small boat. That is who is going to be 
affected--not only those people who own those small boats or 
who borrow or charter those small boats, but the manufacturer 
of those small boats.
    So to wrap it up, Mr. Chairman and members of this 
Committee, closing off areas to those that pay for the 
management of the areas I believe has to be the last resort, 
the last thing you do. If everything else has been tried and 
has not been successful, then you can do that. But to do it 
when the stakeholders in that area who love this area, who 
protect this area, who utilize this area are telling us pretty 
much unanimously that there are other options, better options, 
we think that those options have to be explored first before 
something as draconian as this takes place.
    So, with that, thank you, Mr. Chairman, thank you, members 
of the Committee. I share the concerns and the thoughts of my 
colleagues, of both my colleagues from South Florida, 
Chairwoman Ros-Lehtinen and Mr. David Rivera, who has also been 
a leader in this. Thank you, Mr. Chairman, for your leadership 
and for this opportunity.
    I yield back.
    Mr. Bishop. I appreciate all three of you being here.
    Does anyone have questions for our colleagues?
    Mr. Duncan?
    Mr. Duncan. Well, thank you, Mr. Chairman.
    I don't have a question, but I would like to just briefly 
state that I have seen this movement over the years of trying 
to turn some of our national parks into wilderness areas, and 
it never was intended to be that way.
    And then, also, I have noticed that some Federal and State 
wildlife and fisheries people seem to want to turn these areas 
into their own personal playgrounds and restrict access to 
ordinary people. Certainly, that makes their jobs easier, but 
it is a very elitist type of attitude, and it is just 
disgusting to me. These areas should be made as open and as 
accessible to as many people as possible and shouldn't be 
restricted to the wealthy or the elites.
    Thank you.
    Mr. Bishop. Appreciate that.
    Anything else?
    If not, we thank you for your testimony here. It is nice to 
have a local viewpoint, for what good that does, it is nice to 
have a local viewpoint here. You still have the option of 
staying here with us if you would like to do that. If you have 
other business, we totally understand. I won't forgive you, but 
I will understand.
    Mr. Bishop. With that, we would like to invite the other 
witnesses up. We will just have everyone come up to the panel 
at the same time.
    So if I could invite up to the table Herbert Frost, who is 
from the National Resource Stewardship and Science from the 
National Park Service, U.S. Department of the Interior; Warren 
Judge, who will be testifying on 4094, who is with the Dare 
County Board of Commissioners, Dare County, North Carolina; 
John Couch, President of the Outer Banks Preservation 
Association from North Carolina; Kenneth Wright, who is the 
Vice Chairman of the Florida Fish and Wildlife Conservation 
Commission; K.C. Crook, who is a resident in Florida; and Jack 
Curlett, who is representing himself.
    We thank you all for being here. I think the drill is the 
same as it was with the prior panel. You have the clock before 
you. You have 5 minutes to give your oral testimony. We are 
going to try and keep that specific to the 5 minutes. The green 
light means you have plenty of time; the yellow light means you 
have 1 minute left; and the red, we really want you to quit on 
the red.
    And the same thing for the panel. When you have questions, 
when the red hits, we want it done on the questioning as well.
    So, with that, make sure you pull the microphones close to 
you as you testify. Let me start going down there with Mr. 
Frost. And unlike other times, if you would like to testify on 
both bills, the oversight portion of what is happening in 
Biscayne as well as 4094, at the same time, that would be fine.
    Mr. Frost, please.

  STATEMENT OF HERBERT C. FROST, ASSOCIATE DIRECTOR, NATIONAL 
 RESOURCE STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Frost. Thank you, Mr. Chairman, for the opportunity to 
present the Department of the Interior's view on H.R. 4094. 
This legislation would reinstate the 2007 interim protected 
species management strategy governing off-road vehicle use at 
Cape Hatteras National Seashore.
    The Department strongly opposes H.R. 4094. The Department 
supports allowing appropriate public use and access at the 
seashores to the greatest extent possible, while we ensure 
protection of the seashore's wildlife, provide a variety of 
visitor uses, minimize conflicts among users, and promote 
safety.
    We strongly believe that the final ORV management plan and 
special regulation will accomplish these objectives far better 
than the defunct interim strategy. The plan and regulation, for 
the first time, provide long-term guidance for the management 
of ORV use and for the protection of affected wildlife species 
at the seashore.
    The seashore's dynamic coastal processes create important 
habitats, including breeding sites for many important species 
of beach-nesting birds. These species experienced declines in 
breeding populations at Cape Hatteras over the past 10 to 20 
years prior to the implementation of the consent decree in 
2008. Under our laws and regulations and policies, the National 
Park Service has an affirmative responsibility to conserve and 
protect these species as well as other resources and values of 
the seashore. In addition, the Service is required to designate 
any routes or areas for ORV use by special regulation.
    The ORV management plan, a special regulation, brings the 
seashore into compliance with applicable laws and policies 
after many years of noncompliance. The plan also addresses past 
inconsistent management of ORV use, user conflicts, and safety 
concerns in a comprehensive manner.
    Although wildlife breeding success depends on a number of 
factors with the measures in place under the consent decree, 
there has been a striking improvement in the condition of 
protected beach-nesting wildlife species. Many of these 
measures have been adapted in the management plan. The seashore 
has experienced a record number of piping plover pairs and 
fledge chicks, American oystercatcher fledge chicks, least tern 
nests, and improved nesting results for other species of 
nesting colonial waterbirds. The number of sea turtles' nests 
also has significantly increased. These improvements occurred 
even though many miles of the beach remain open, unaffected by 
species protection measures, and seashore visitation numbers 
remain stable.
    During the preparation of the management plan, the National 
Park Service evaluated the potential of environmental impacts 
of long-term implementation of the interim strategy. The 
analysis determined that if the interim strategy were 
continued, it would result in a long-term moderate to major 
adverse impact to piping plovers, American oystercatchers, and 
colonial waterbirds, and long-term major adverse impacts to sea 
turtles. Impacts to sea turtles and three species of colonial 
waterbirds has the potential to raise to the level of 
impairment, which would violate the Park Service Organic Act.
    In addition, if the interim strategy was to be reinstated, 
it would likely be counterproductive to visitor access. Many 
popular destinations, such as Cape Point and the inland spits, 
would still experience resource protection closures, 
particularly when highly mobile piping plover and American 
oystercatcher chicks are present. Several of the beach-nesting 
bird species at the seashore may renest several times during 
the same season if eggs or young chicks are lost. Under the 
consent decree, with its science-based buffers, there has been 
a noticeable reduction in the number of renesting attempts, 
which means the duration of the closures are typically shorter.
    No matter which management approach is in effect, the birds 
will continue to attempt to nest at these sites, even if 
resource protection is inadequate, because that is where the 
most suitable habitat is located. The interim strategy would 
allow for a higher level of human disturbance in proximity to 
nests and chicks at these key sites, which increases the chance 
that nests and young chicks will be lost, which in turn 
increases the likelihood that birds will renest one or more 
times at both sites. This could extend the length of time that 
any particular site would be closed due to breeding activity, 
even if the apparent size of the closure is smaller than that 
under the ORV management plan or consent decree.
    The Department opposes H.R. 4094 for several additional 
reasons. These reasons are covered in my full written 
statement.
    Finally, I want to point out that the ORV management plan 
and special regulation are the products of an intensive 5-year-
long planning process that included a high level of public 
participation, both through the NEPA process and negotiated 
rulemaking. It included four rounds of public comment 
opportunities. The NPS received more than 15,000 individual 
comments on the draft plan and more than 21,000 individual 
comments on the proposed special regulation. In completing the 
final plan and the special regulation, the NPS considered all 
comments, weighing competing interests, and ensured compliance 
with all applicable laws.
    This concludes my testimony, Mr. Chairman.
    Mr. Bishop. Thank you.
    [The prepared statements of Mr. Frost follows:]

  Statement of Herbert C. Frost, Associate Director, Natural Resource 
Stewardship and Science, National Park Service, U.S. Department of the 
Interior, on H.R. 4094, To Authorize Pedestrian and Motorized Vehicular 
 Access in Cape Hatteras National Seashore Recreational Area, and for 
                             Other Purposes

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 4094, a bill entitled ``to authorize 
pedestrian and motorized vehicular access in Cape Hatteras National 
Seashore Recreational Area, and for other purposes.''
    The Department strongly opposes H.R. 4094. This bill would 
reinstate the 2007 Interim Protected Species Management Strategy 
(Interim Strategy) governing off-road vehicle (ORV) use at Cape 
Hatteras National Seashore (Seashore). In response to a lawsuit 
challenging its adequacy, the Interim Strategy was modified by a court-
approved Consent Decree on April 30, 2008. The Seashore was managed 
under the Consent Decree through 2011. Meanwhile, the final ORV 
Management Plan/Environmental Impact Statement (EIS), and special 
regulation went into effect on February 15, 2012.
    The Department supports allowing appropriate public use and access 
at the Seashore to the greatest extent possible, while also ensuring 
protection for the Seashore's wildlife and providing a variety of 
visitor use experiences, minimizing conflicts among various users, and 
promoting the safety of all visitors. We strongly believe that the 
final ORV management plan and special regulation will accomplish these 
objectives far better than the defunct Interim Strategy.
    The final ORV management plan for the first time provides long-term 
guidance for the management of ORV use and the protection of affected 
wildlife species at the Seashore. The plan is designed to not only 
provide diverse visitor experience opportunities, manage ORV use in a 
manner appropriate to a unit of the National Park System, and provide a 
science-based approach to the conservation of protected wildlife 
species, but also to adapt to changing conditions over the life-span of 
the plan. It includes a five-year periodic review process that will 
enable the NPS to systematically evaluate the plan's effectiveness and 
make any necessary changes.
    The Seashore's dynamic coastal processes create important habitats, 
including breeding sites for many species of beach-nesting birds, among 
them the federally listed threatened piping plover, the state-listed 
threatened gull-billed tern, and a number of species of concern 
including the common tern, least tern, black skimmer, and the American 
oystercatcher. All of these species experienced declines in breeding 
population at Cape Hatteras over the 10-20 years prior to the 
implementation of the Consent Decree in 2008. For example, in 1989 the 
Seashore had 15 breeding pairs of piping plovers; and by 2001-2005, 
that number had dropped to only 2-3 pairs attempting to nest each year. 
The numbers of colonial waterbird nests within the Seashore also 
plummeted from 1,204 nests in 1999 to 320 nests in 2007.
    Under the National Park Service Organic Act, the Endangered Species 
Act, the Migratory Bird Treaty Act, the Seashore's enabling act, and 
National Park Service (NPS) regulations and policies, the NPS has an 
affirmative responsibility to conserve and protect all of these 
species, as well as the other resources and values of the Seashore. 
Executive Order 11644 (1972), amended by Executive Order 11989 (1977), 
requires the NPS to issue regulations to designate specific trails and 
areas for ORV use based upon resource protection, visitor safety, and 
minimization of conflicts among uses of agency lands. The regulation 
that the NPS subsequently promulgated (36 C.F.R. Sec. 4.10) requires 
the NPS to designate any routes or areas for ORV use by special 
regulation and in compliance with Executive Order 11644.
    The special regulation that went into effect on February 15 brings 
the Seashore into compliance with that regulation and with the 
Executive Orders and other applicable laws and policies, after many 
years of non-compliance. In addition to resource impacts, the approved 
plan addresses past inconsistent management of ORV use, user conflicts, 
and safety concerns in a comprehensive and consistent manner.
    The Interim Strategy was never intended to be in place over the 
long-term. At the time it was developed, the Seashore had no consistent 
approach to species protection and no ORV management plan or special 
regulation in place. While the Interim Strategy took an initial step 
toward establishing a science-based approach, key elements such as 
buffer distances for American oystercatchers and colonial waterbirds, 
and the lack of night driving restrictions during sea turtle nesting 
season, were inconsistent with the best available science. The 2006 
USFWS biological opinion for the Interim Strategy indicated that it 
would cause adverse effects to federally listed species, but found no 
jeopardy to those species mainly because of the limited duration of 
implementation (expected to be no later than the end of 2009). 
Similarly, the 2007 NPS Finding of No Significant Impact (FONSI) for 
the Interim Strategy indicated the action had the potential to 
adversely impact federally listed species and state-listed species of 
concern, but found that a more detailed analysis (an EIS) was not 
needed because of the limited period of time that the Interim Strategy 
would be implemented.
    By contrast, the species-specific buffer distances and the night 
driving restrictions contained in both the Consent Decree and in the 
plan/EIS are based on scientific studies and peer-reviewed management 
guidelines such as the U.S. Fish and Wildlife Service (USFWS) Piping 
Plover and Loggerhead Turtle Recovery Plans, and the U.S. Geological 
Survey (USGS) Open-File Report 2009-1262 (also referred to as the 
``USGS protocols,'') on the management of species of special concern at 
the Seashore. Buffer distances for state-listed species are based on 
relevant scientific studies recommended by the North Carolina Wildlife 
Resources Commission, USFWS, and USGS.
    Although breeding success depends on a number of factors, with the 
measures in place under the Consent Decree, there has been a striking 
improvement in the condition of protected beach-nesting wildlife 
species. The Seashore has experienced a record number of piping plover 
pairs and fledged chicks, American oystercatcher fledged chicks, least 
tern nests, and improved nesting results for other species of colonial 
waterbirds. The number of sea turtle nests also significantly 
increased, from an annual average of 77.3 between 2000-2007 to an 
average of 129 between 2008-2011. These improvements occurred even 
though many miles of beach remained open, unaffected by species 
protection measures, and Seashore visitation numbers remained stable.
    During the preparation of the EIS for the management plan, the NPS 
evaluated the potential environmental impacts of long-term 
implementation of the Interim Strategy. The analysis determined that if 
the Interim Strategy were continued into the future, it would result in 
long-term, moderate to major adverse impacts to piping plovers, 
American oystercatchers, and colonial waterbirds, and long-term, major 
adverse impacts to sea turtles. Impacts to sea turtles and three 
species of colonial waterbirds had the potential to rise to the level 
of ``impairment,'' which would violate the National Park Service 
Organic Act.
    Because the number of nesting birds has increased significantly 
since 2007, if the Interim Strategy were to be reinstated, it could be 
counterproductive to visitor access. Many popular destinations, such as 
Cape Point and the inlet spits, would still experience resource 
protection closures, particularly when highly mobile piping plover and 
American oystercatcher chicks are present. Several of the beach-nesting 
bird species at the Seashore may renest several times during the same 
season if eggs or very young chicks are lost. Under the Consent Decree, 
with its science-based buffers, there has been a noticeable reduction 
in the number of renesting attempts for piping plovers and American 
oystercatchers, which means the duration of closures is typically 
shorter. No matter which management approach is in effect, the birds 
will continue to attempt to nest at these sites, even if resource 
protection is inadequate, because that is where the most suitable 
habitat is located. The Interim Strategy would allow a higher level of 
human disturbance in proximity to nests and chicks at these key sites, 
which increases the chances that nests and young chicks will be lost, 
which in turn increases the likelihood that birds will renest one or 
more time at those sites. This could extend the length of time that any 
particular site would be closed due to breeding activity, even if the 
apparent size of the closure is smaller than that under the ORV plan or 
Consent Decree.
    In addition to reinstating the Interim Strategy, H.R. 4094 provides 
authority for additional restrictions only for species listed as 
``endangered'' under the Endangered Species Act of 1973, and only for 
the shortest possible time and on the smallest possible portions of the 
Seashore. This would conflict with numerous other laws and mandates 
including the National Park Service Organic Act, the Migratory Bird 
Treaty Act, the Seashore's enabling act, the aforementioned Executive 
Orders, and NPS regulations implementing these laws, which provide for 
the protection of other migratory bird species and other park 
resources.
    H.R. 4094 also provides that the protection of endangered species 
at Cape Hatteras shall not be greater than the restrictions in effect 
for that species at any other national seashore. Species protection 
measures cannot reasonably be compared from seashore to seashore 
without considering the specific circumstances at each site and the 
context provided by the number and variety of protected species 
involved, the levels of ORV use, and the underlying restrictions 
provided by the respective ORV management plans and special 
regulations. Even though Cape Hatteras has a wider variety of beach 
nesting wildlife species than Cape Cod or Assateague, for example, its 
plan actually allows for a much higher level of ORV use on larger 
portions of the Seashore. It would be neither reasonable nor 
biologically sound for Cape Hatteras to use less protective measures if 
they were designed for a location where the level of ORV use is much 
lower to begin with. Nor does it appear that such an arbitrary approach 
could possibly comply with the ``peer-reviewed science'' requirement 
imposed elsewhere in the bill. The Cape Hatteras plan was specifically 
designed to be effective for the circumstances at Cape Hatteras.
    The bill would require, to the maximum extent possible, that 
pedestrian and vehicle access corridors be provided around closures 
implemented to protect wildlife nesting areas. This concept was 
thoroughly considered during the preparation of the plan and EIS. The 
plan already allows for such access corridors when not in conflict with 
species protection measures. But because of the Seashore's typically 
narrow beaches, and the concentrations of nests at the best available 
habitat near the inlets and Cape Point, nesting areas are often close 
to the shoreline, and access corridors cannot always be allowed without 
defeating the fundamental purpose of such closures, which is to protect 
beach-nesting wildlife. Several species of shorebirds that nest at the 
Seashore have highly mobile chicks, which can move considerable 
distances from nests to foraging sites. Inadequate resource closures in 
the past have resulted in documented cases of human-caused loss or 
abandonment of nests and chick fatalities. Corridors that cut through a 
resource closure area would essentially undermine the function of the 
closure and render it compromised or even useless.
    Finally, the final ORV management plan/EIS and special regulation, 
are the products of an intensive five-year long planning process that 
included a high level of public participation through both the National 
Environmental Policy Act (NEPA) process and negotiated rulemaking, 
including four rounds of public comment opportunities. The NPS received 
more than 15,000 individual comments on the draft plan/EIS and more 
than 21,000 individual comments on the proposed special regulation. In 
completing the final ORV management plan/EIS and special regulation, 
the NPS considered all comments, weighed competing interests and 
ensured compliance with all applicable laws.
    Mr. Chairman, that concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.
                                 ______
                                 

  Statement of Herbert C. Frost, Associate Director, Natural Resource 
Stewardship and Science, National Park Service, U.S. Department of the 
Interior, on ``Access Denied: Turning Away Visitors to National Parks''

    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to appear before you today to discuss the issue of access 
to national parks, particularly with regard to the impact of management 
plans on visitor access and local economies at Cape Hatteras National 
Seashore and Biscayne National Park.
    Providing for visitor enjoyment of our national parks is required 
by the National Park Service Organic Act, along with the mandate to 
conserve the scenery and the natural and historic objects of our parks 
unimpaired for future generations. They are areas where, in carrying 
out the Organic Act and other laws, we are responsible for protecting 
wildlife, ecosystems, water quality, and natural quiet; preserving our 
nation's culture and history; educating visitors; and leaving a legacy 
of our nation's natural and cultural heritage. For that reason, the 
management plans for our parks that the National Park Service develops 
need to carefully weigh competing requirements, needs, and desires, 
particularly in terms of visitor use.
    The two parks that are the subject of this hearing, Cape Hatteras 
National Seashore (Seashore) and Biscayne National Park (Park), have 
management plans--final and draft, respectively--that are seen by some 
as curtailing access to these two popular and highly valued Atlantic 
Coast parks. The off-road vehicle (ORV) management plan that was 
implemented this year at the Seashore has been highly controversial 
among both opponents and proponents of ORV restrictions. Similarly, the 
proposed General Management Plan (GMP) at the Park is controversial 
among opponents and proponents of the plan's proposed marine reserve 
zone and non-combustion engine use zone. In both cases, the National 
Park Service is acting to preserve and protect the natural resources 
that are fundamental to the reason both of those areas are included in 
the National Park System. These management plans are instruments that 
will help us invest in the future viability of the wildlife and the 
ecosystems of the two parks. Restricting a relatively modest amount of 
use of these two parks now will help ensure that the public continues 
to have access to these natural resources over the long run.
    The National Park Service does not take lightly the imposition of 
restrictions on activities that were more freely enjoyed in the past; 
we understand the disappointment and loss new restrictions can 
generate. We are also keenly aware of how important parks are to 
gateway communities, and how changes in rules for recreational 
activities can affect the well-being of businesses in those 
communities. Our process for developing management plans includes 
taking into consideration the views of all affected parties. This 
public process helps us refine plans in ways that will minimize the 
disruption to traditional uses and businesses built around those uses 
while we act to comply with laws and regulations and balance competing 
interests.
Cape Hatteras National Seashore
    Cape Hatteras National Seashore stretches for about 67 miles along 
three islands of the Outer Banks of North Carolina. The Seashore is 
famous for its soft sandy beaches, its outstanding natural beauty, and 
its seashore wildlife that inhabits the sand dunes, marshes, and 
woodlands. Long a popular recreation destination, Cape Hatteras 
attracts about 2.2 million visitors a year who come to walk the beach, 
swim, sail, fish, and enjoy the ambiance of the shore. In the towns 
that dot the Outer Banks, a major tourism industry has developed to 
serve the visiting tourists and local beachgoers, including fishermen. 
In 2010, visitors to the Seashore spent approximately $108 million, 
which supported about 1,700 jobs.
    We appreciate the long tradition and popularity of ORV use at Cape 
Hatteras, which many anglers use to haul gear to popular fishing spots, 
and the economic value that activity generates for the local 
communities. However, ORV use at the Seashore was out of compliance 
with laws and regulations for many years, and, after several efforts to 
achieve compliance faltered, an ORV management plan and special 
regulation for Cape Hatteras National Seashore were finally adopted on 
February 15, 2012. This management plan is being implemented following 
four years of management of the Seashore under a court-ordered Consent 
Decree, which imposed new restrictions on ORV use and helped begin 
reversing the decline of key seashore wildlife species.
    Under the science-based species protection measures of the Consent 
Decree, many of which are incorporated in the ORV management plan and 
special regulation, there has been a significant trend of improving 
conditions for beach nesting birds and sea turtles. During this period, 
the Seashore experienced record numbers of piping plover breeding pairs 
and fledged chicks, American oystercatcher fledged chicks, and least 
tern nests, as well as improved nesting results for other species of 
colonial waterbirds. Although a number of factors, including weather, 
predation, habitat availability, and the level of human disturbance 
ultimately affect shorebird and waterbird breeding success, under the 
Consent Decree the science-based buffers effectively minimized human 
disturbance of nesting areas at critical times during the breeding 
cycle. The number of sea turtle nests in the Seashore also 
significantly increased under the Consent Decree, which imposed a night 
driving restriction for the first time. During 2008--2011, the Seashore 
averaged 129 sea turtle nests annually, compared to an annual average 
of 77.3 from 2000--2007.
    Although the prescribed buffers have resulted in temporary closures 
of some popular locations when breeding activity was occurring, even at 
the peak of the breeding season there have generally been many miles of 
open beach entirely unaffected by the species protection measures. And, 
during this same period, annual visitation at the Seashore continued at 
a level similar to that of 2006--2007. Dare County, where the Seashore 
is located, experienced record occupancy tax revenues in 2010 and near-
record revenues in 2011, despite the impacts of Hurricane Irene that, 
among other effects, closed North Carolina Highway 12 to Hatteras 
Island from August 27 to October 10, 2011.
    The ORV management plan and special regulation reflect the outcome 
of a five-year long intensive public process that included a high level 
of public participation through both the National Environmental Policy 
Act (NEPA) process and negotiated rulemaking. In 2006, the National 
Park Service began public scoping for the plan/EIS, and concurrent with 
that process, established a Negotiated Rulemaking Advisory Committee 
whose function was to assist directly in the development of special 
regulations for management of ORVs. The committee, composed of 29 
representatives of diverse interests, met eleven times, for a total of 
20 meeting days, between January 2007 and February 2009. There were 
also numerous subcommittee meetings on a number of issues such as 
agenda planning; natural resources; permits, passes and fees; routes 
and areas; socio-economic analysis; vehicle characteristics and 
operations; and village beaches. Although the committee did not reach 
consensus on a proposed regulation, it provided a valuable forum for 
the discussion of a wide variety of ORV management and resource 
protection issues and generated a large volume of useful information 
for the NPS.
    During the NEPA and rulemaking processes, the NPS also provided 
four rounds of public comment opportunities. The NPS received more than 
15,000 individual comments on the draft plan/EIS and more than 21,000 
individual comments on the proposed special regulation. The views of 
those who wanted less restrictive measures than the proposed plan 
called for were fully considered along with the views of those who 
wanted more restrictive measures. Currently, the ORV management plan 
and special regulation are the subject of a complaint that was filed by 
a coalition of ORV organizations with the U.S. District Court in the 
District of Columbia on February 9, 2012.
Biscayne National Park
    Biscayne National Park, located south of Miami, has over 151,000 
acres of marine and estuarine waters, which make up about 95 percent of 
the park. Its coral reef is its signature feature. Some of the park's 
half-million annual visitors come just to enjoy the scenery and picnic, 
but the main attraction is the opportunity for water recreation--
swimming, snorkelling diving, boating, and fishing. Economic data 
suggest that Biscayne National Park supports more than 400 local jobs.
    The process to develop a new GMP to update the park's 1983 plan 
began in 2000. Public meetings were held in 2001, 2009, and 2011. A 
preferred alternative, Alternative Four, was chosen in 2010. During the 
public comment period in 2011, more than 18,000 public comments were 
received and more than 300 people attended public meetings. The 
National Park Service is currently analyzing the public comments and 
expects to finalize the GMP by the end of this year.
    Two of the proposals in Alternative Four have generated significant 
interest and controversy: one is the proposed establishment of a marine 
reserve zone (MRZ), which would be a no-take area, where fishing of any 
kind would be prohibited. The other is the proposed establishment of 
non-combustion engine use zones.
    The proposal for a MRZ is intended to allow a portion of the coral 
reef a reprieve to recover its health and to offer visitors the 
opportunity to see an intact and unfished coral reef system. Coral 
reefs contain some of the most diverse ecosystems in the world, forming 
important habitat for thousands of corals, algae, fish, and other 
marine organisms. They also serve as natural areas for recreation, 
boost the marine tourism economy, support recreational and commercial 
fisheries, protect coastlines from storm damage, and function as rich 
warehouses for genetic and species diversity.
    Coral reefs are in decline worldwide and Biscayne's reef is part of 
that trend. Peer-reviewed studies from the National Park Service, the 
National Marine Fisheries Service, the U.S. Fish and Wildlife Service, 
Miami-Dade County, the University of Miami, the University of South 
Florida, the University of North Carolina-Wilmington, and others have 
consistently detailed the loss of biological integrity of the park's 
coral reef. The studies show that the reef's coral and fish resources 
are greatly diminished from previous years. They also document a clear 
relationship between healthy fish populations and healthy reef 
ecosystems--coral reefs need healthy fish. Biscayne's reef shows 
dramatic losses of living coral, from approximately 28 percent coverage 
three decades ago to only five to seven percent today. Fish populations 
in the park have been declining for years, with 64 percent of species 
observed less frequently in 2006-2007 than in the late 1970s and early 
1980s. Some species have disappeared from the park completely.
    Marine scientists the world over agree that the most effective tool 
for marine ecosystem repair is a MRZ. Other tools can be effective for 
maintaining sustainable fish populations, but the National Park Service 
mission is different than merely achieving sustainable fisheries. 
Natural coral reef ecosystems contain the full size and age spectrum of 
all the species found in them. Fishing size limits, slot limits, and 
bag limits cannot achieve the goal of ecosystem repair. Temporary 
closures produce short-term growth but not long-term population 
enhancement. Catch and release is an effective tool for shallow water 
species but has proven to be far less successful with reef species.
    Areas where fish are not harvested also provide important 
recreational opportunities. Snorkeling and diving a healthy and vibrant 
coral reef, full of large fish and brilliant corals, are activities 
that many people find enjoyable and educational. MRZs are also good 
investments in tourism: areas that consistently contain large numbers 
of big fish, such as grouper and snapper, attract greater numbers of 
scuba divers, snorkelers, and others interested in seeing beautiful 
fish in their natural habitat. In MRZs, large fish often swim right up 
to snorkelers and divers, providing an experience unmatched in other 
places. By allowing Biscayne's reef ecosystem to recover, the proposed 
marine reserve zone could make the park one of South Florida's premier 
tourist destinations for divers, snorkelers, and marine enthusiasts.
    The draft GMP's preferred alternative would set aside seven percent 
of the park's waters as a marine reserve zone for this unparalleled 
recreation opportunity. The remaining 151,000 acres, or 93 percent of 
park waters, including 70 percent of the park's reef tract, would 
remain open to fishing. The park carefully considered many factors in 
determining the location and size of the marine reserve zone. Those 
factors included the sea floor habitat and habitat connectivity, living 
coral cover, type of reef, shipwrecks, and minimization of impacts on 
other users.
    The proposed marine reserve zone has significant public support. In 
reviewing the more than 18,000 public comments on the Park's draft GMP, 
our initial analysis indicates that more than 90 percent of the 
comments support alternatives containing a marine reserve zone.
    While the purpose of this marine reserve zone is for resource 
restoration and enhanced visitor experiences, not fishery management, 
numerous studies show that marine reserve zones are also good 
investments in fisheries. Research has shown that within a few years of 
establishing a zone, ``spillover'' from fish swimming out of the zone 
will benefit fishing in surrounding waters. As fish in a zone become 
larger and more prolific, many will eventually swim out, leading to 
greater catches in areas adjacent to the zone. Most large ``trophy'' 
fish caught in Florida are taken adjacent to closed no-take areas.
    The other issue that has attracted heightened interest in the GMP 
is the proposal to establish non-combustion engine use zones. These 
areas, commonly known as ``pole and troll'' zones, are needed to 
protect fragile resources along portions of the mainland shoreline 
adjacent to impenetrable mangrove forests, in shallow seagrass areas, 
and near bird rookeries. These zones are fairly small and are in the 
extremely shallow waters (less than 2-1/2 feet deep), which prudent 
boaters would not motor across anyway. Many fishermen specifically 
requested these no-motor zones in the areas where they are proposed 
under Alternative Four. The zones will not prevent anyone from entering 
or using the park, and there are no areas proposed for non-combustion 
engine use zones that would prevent visitors from launching motorized 
boats.
    At both Biscayne and Cape Hatteras, the National Park Service is 
committed to providing for everyone's enjoyment of the parks' resources 
to the greatest extent possible, while ensuring protection of those 
resources, now and in the future. We believe that continued 
implementation of the current long-term ORV management plan and special 
regulation at Cape Hatteras, and the GMP for Biscayne, once finalized 
after consideration of public comments, will, over the long term, 
provide the best course to serve the varied interests of the both parks 
while meeting the National Park Service's resource protection 
responsibilities.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or other members of the subcommittee may have.
                                 ______
                                 
    Mr. Bishop. Now we will turn to Mr. Couch, who will be 
testifying on 4094, if you would, please. I am sorry, I am 
dyslexic here. We will turn to Mr. Judge, who is next on the 
row here. I think you are also on 4094, and then Mr. Couch. I 
apologize for that.
    Mr. Judge, please.

   STATEMENT OF WARREN JUDGE, CHAIRMAN, DARE COUNTY BOARD OF 
     COMMISSIONERS, DARE COUNTY GOVERNMENT, NORTH CAROLINA

    Mr. Judge. No apology needed, Mr. Chairman. And thank you, 
Mr. Chairman and Ranking Member and members of the Committee. I 
appreciate this opportunity to be here today on behalf of the 6 
million people who visit Dare County every year, the 33,000 
people who call it their home, and the 50,000 daily visitors 
inside the Cape Hatteras National Seashore Recreational Area 
each day during the summer season.
    As Chairman of the Dare County Board of Commissioners, I 
would like to share with you firsthand reports of the impact 
that increased beach access restrictions have had on our area 
and the grim future our businesses face under the newly enacted 
ORV rule of the National Park Service.
    Small businesses are the economic backbone of Dare County. 
Hardworking men and women have for generations created jobs and 
sustained economic growth for our area by offering outstanding 
service and hospitality to those who travel from around the 
Nation to enjoy our family oriented beaches and rich heritage 
of historical and cultural attractions.
    Tourism is our primary industry. It is the engine that 
drives our economy. There are no corporate headquarters in Dare 
County. We do not have technology corridors or factories to 
provide employment. What we do have are industrious people who 
ask only for a fair opportunity to earn their part of the 
American dream.
    That dream has been marred for many small-business owners 
who have dedicated their lives to serving those who visit the 
Cape Hatteras National Seashore Recreational Area. This group 
includes hundreds of grassroots entrepreneurs who operate 
restaurants, gift shops, motels, cottages, fishing tackle 
stores, and all the mom-and-pop businesses that provide the 
necessary infrastructure to support our visitors. Since the 
consent decree was enacted in the spring of 2008, these people 
have suffered.
    People like Frank Folb, who for over 25 years has operated 
a popular fishing tackle business on Hatteras Island in the 
village of Avon. He has seen a drop in revenue directly related 
to restricted beach access. In the first year alone of the 
consent decree, he suffered a 20 percent decrease, which has 
taken a harsh toll on his employees and their families.
    John Couch, who you will hear from in a minute, another 
small-business owner, is near the entrance to the Cape Hatteras 
Lighthouse and the popular Cape Point fishing destination. He 
has carefully documented that when access is denied, his 
business goes down. Like many, he has witnessed that it is a 
cause-and-effect relationship, and he has experienced the pain.
    Another business owner who had the rug pulled out from 
beneath him by the consent decree is Bob Eakes. He was forced 
to lay off one-third of his workforce. And in order to survive, 
he also had to use funds set aside for his son's education.
    These people represent a community that has already 
suffered enough. Unfortunately, we now face a future that holds 
more economic insecurity under the newly enacted ORV rule. 
Sadly, it imposes even greater restrictions than we have 
endured under the consent decree. The ORV rule is a flawed 
approach to balancing reasonable recreation access with 
resource protection.
    That is why I am reaching out to you today for your support 
of H.R. 4094. This legislation would reinstate the interim 
management plan, a proven approach that has worked with 
success, a plan fully vetted with much public input that the 
Park Service found to be accurate in 2007.
    Dare County supports science-based resource management and 
believes this can best be achieved through H.R. 4094. It will 
allow the superintendent to make timely and practical 
adjustments that are in direct response to the actual 
conditions that are occurring at the seashore on a realtime 
basis. Under 4094, the superintendent will use his professional 
experience and his expertise to manage the seashore, rather 
than the rigid and unbending parameters of the existing ORV 
rule. Access decisions will be made by a park superintendent 
who is ultimately accountable to Congress rather than the 
courts or a rigid, arbitrary, flawed ORV plan.
    H.R. 4094 is good for the resources that are being 
protected, and it is good for the people. It represents a true 
win-win situation.
    No one is more committed to preserving a solid long-term 
ecological future for the beaches of the Outer Banks than the 
people of Dare County. For generations, our community has been 
on the vanguard of sustaining the natural resources for our 
children and our grandchildren to enjoy. I respectfully ask you 
to help us preserve our culture and our history and our way of 
life by enacting H.R. 4094.
    Mr. Chairman, this concludes my remarks, and I just want to 
say one more thing. When this happens in Dare County, in the 
Cape Hatteras seashore, and if it is allowed to continue to 
happen, it will spread down the coastline of North Carolina, up 
and down the East Coast of the United States and across this 
great country of ours, touching every public park, national 
park, and area.
    Thank you.
    Mr. Bishop. Thank you. I appreciate your concern. You don't 
want to be treated like we in the West are treated by them.
    Mr. Judge. Yes, sir.
    [The prepared statement of Mr. Judge follows:]

       Statement of Warren Judge, Chairman, Dare County Board of 
    Commissioners, County of Dare, North Carolina, on H.R. 4094, To 
    authorize pedestrian and motorized vehicular access in the Cape 
              Hatteras National Seashore Recreational Area

    Dare County North Carolina, known as the Outer Banks, is home to 
the Cape Hatteras National Seashore Recreational Area. Most of the 
seashore is within Dare County, with a portion in Ocracoke being 
located in neighboring Hyde County.
    The Cape Hatteras National Seashore Recreational Area (CHNSRA) was 
established as America's first national seashore with the promise that 
this unique area would always have recreational access for the people.
    The people of Dare County have cooperated with the National Park 
Service in developing America's seashore into a popular attraction with 
cultural and historical significance. At the urging of the National 
Park Service, people built businesses and infrastructure to support and 
promote tourism to the area. For generations the area flourished and 
the area became a popular tourism destination because of its world-
class fishing and a host of family-oriented recreational activities.
    The County of Dare through its elected leaders, and in concert with 
grassroots community partners, has actively participated in every phase 
of the Federal Government's planning and rulemaking process.
    We advocated for the ``Interim Management Strategy'' and 
participated in the negotiated rulemaking process. We also engaged in 
Public Hearings on the Draft Environmental Impact Statement (DEIS), 
Final Environmental Impact Statement, (FEIS) and ORV Management Plan. 
We, and others, offered practical solutions that would satisfy the 
concerns required by Executive Orders 11644 and 11989 without 
compromising the area's unique culture and economy.
    The National Park Service's ORV Management Plan, and the Final 
Environmental Impact Statement upon which it is based, are seriously 
flawed. It lacks a sound scientific basis and reflects a distorted 
economic analysis. It also does not reflect the will of the people that 
was articulately expressed during public hearings.
    Throughout the public process, there was an outpouring of positive 
and substantive comments by the people of Dare County. Thousands of 
others, from across the nation, who love the Cape Hatteras National 
Seashore Recreational Area, joined us in this effort.
    We, the people, spoke as a virtually unanimous voice in 
recommending practical solutions for management of the seashore. 
However, the National Park Service did not listen to the clearly 
expressed will of the people and incorporate our concerns and 
suggestions.
    It has been our longstanding position that people and wildlife can 
live in harmony and that reasonable recreational access is consistent 
with proper resource management. For decades, we have maintained that 
meaningful access is fundamental to the visitor experience and the 
continued growth and economic vitality of the Outer Banks.
    Following are the specific areas of concern that we have identified 
for the seashore. We seek relief through passage of H.R. 4094, which 
would reinstate the Interim Management Plan for the Cape Hatteras 
National Seashore Recreational Area.
        <bullet>  NO FEES for ORV permits
        <bullet>  TRAINING & PERMITS available online and at multiple 
        locations with convenient hours
        <bullet>  NEW INFRASTRUCTURE should be established before new 
        corridors & VFA's
        <bullet>  FLEXIBILITY FOR THE SUPERINTENDENT to adapt corridors 
        and routes
        <bullet>  SEASONAL VILLAGE CLOSURES based on conditions not 
        arbitrary dates
        <bullet>  ROUTES that recognize established patterns of 
        historical use
        <bullet>  CORRIDORS to provide access through & around areas of 
        resource closures
        <bullet>  ACCOMMODATIONS FOR HANDICAPPED PERSONS for safe 
        access to all areas of the seashore
        <bullet>  PREDATOR REMOVAL PROGRAM that destroys hundreds of 
        mammals each year to protect a few selected species
NO FEES FOR ORV PERMITS
    The Cape Hatteras National Seashore Recreational Area rightly 
belongs to the American people. For generations, families have depended 
on access to the seashore for recreation. This access has historically 
been provided at no cost for the residents and visitors of the CHNSRA.
    Families plan all year long to visit Cape Hatteras. They save 
diligently in order to afford a destination where an American family 
can still enjoy a wholesome recreational experience at a reasonable 
price. This budgetary dynamic is a crucial one for the working people 
that frequent the CHNSRA. For these visitors, adding a fee to access 
the beach is akin to charging a fee to breathe the air.
    Instituting fees for use of the CHNSRA threatens to hurt tourism 
and adversely affect the visitor experience. This applies not only to 
the National Park Service properties on the Outer Banks, but to the 
overall tourism-based economy on which Dare County depends.
    User fees disproportionately affect those on fixed incomes, single 
parents, low-income visitors, and minorities. A $120 user fee for 
someone earning the minimum wage of $7.25 per hour is more greatly 
affected than someone earning an upper class income. We believe high 
user fees favor the rich and privileged over the poor and working 
middle class families that depend on free access to the Cape Hatteras 
National Seashore Recreational Area.
    The yearly and weekly fees, as imposed by the National Park 
Service, are excessively high and make no provision for the many who 
visit the seashore for a length of stay of less than one week. By 
ignoring the needs of those who make day trips and weekend excursions 
to the Outer Banks, the Park Service further impairs the visitor 
experience.
TRAINING & PERMITS available online and at multiple locations with 
        convenient hours
    The American public and the visitors to the CHNSRA have responded 
well to educational efforts done by a variety of user groups and the 
County of Dare. Our residents and visitors have a long-standing 
position of promoting and supporting responsible stewardship of the 
Cape Hatteras National Seashore Recreational Area.
    While additional education and training is desirable in any 
endeavor, we believe that requiring mandated training prior to the 
issuance of a permit is unwarranted in this case because of the 
effective job that has been done to promote and sustain reasonable use 
of the CHNSRA.
    If NPS continues to impose a training requirement, over our 
objection, then the following practical issues must be considered:
        Training and Permits Must Be Available Online

        Visitors to the CHNSRA generally have one (1) week in which to 
        pack in as much vacation as possible. Visitors to the Outer 
        Banks most frequently arrive on Saturday afternoon and stay 
        through the calendar week.

        This pattern sets in place a weekly cycle that will choke the 
        resources of NPS in handling a long line of incoming visitors 
        each Saturday. Furthermore, the NPS permit office needs to be 
        open well into the evening hours in order to accommodate those 
        traveling tremendous distances to reach Dare County.
NEW INFRASTRUCTURE should be established before new corridors & VFA's
    NPS proposes new infrastructure for parking, ramps and access that 
should be implemented prior to the new routes, corridors and vehicle 
free areas (VFA's) that are outlined in the ORV Management Plan.
    Vehicle free areas (VFA's) will require additional off beach 
parking for those who want to be pedestrians within the new VFA's.
    To impose new guidelines without the support system in place will 
only impede and restrict access and risk further harm to the visitor 
experience.
FLEXIBILITY FOR THE SUPERINTENDENT to adapt corridors and routes
    The County of Dare has long supported giving flexibility to the 
Superintendent of the CHNSRA to use his or her best professional 
judgment in adapting corridors and routes as the physical nature and 
characteristics of the beach change on a dynamic basis. This common 
sense approach allows the Superintendent to modify access based upon 
the changing conditions that exist at the time, rather than arbitrarily 
written mandates.
    For example, when buffers are established to protect a resource, 
once the species have begun moving from the nesting area, the 
Superintendent could monitor and modify the established buffer on an 
on-going basis. This would ultimately provide more dynamic and 
effective resource protection, while at the same time providing more 
access. This represents a win-win situation for both protected 
resources and the American public.
    Also, as the landscape of the seashore changes due to weather and 
tide conditions the natural environment of the area changes as well. 
These changes can best be assessed, analyzed and adjusted as needed by 
the Superintendent. We believe the Superintendents of the CHNSRA, 
including the current one, are dedicated professionals with the ability 
and experience to manage the seashore in a responsible way.
    Dare County has long supported giving flexibility to the 
Superintendent. This was a fundamental principle in our participation 
in the drafting of early guidelines for the seashore including the 
Interim Management Strategy. Providing this flexibility for the 
Superintendent was a keystone of our position throughout the negotiated 
rulemaking process, the public hearings on the Draft Environmental 
Impact Statement (DEIS), and comments on the Final Environmental Impact 
Statement (FEIS).
    NPS needs to trust and empower its Superintendent to adapt and 
alter corridors and routes.
SEASONAL VILLAGE CLOSURES based on conditions not arbitrary dates
    Seasonal closures, in front of Hatteras Island Villages, should be 
based and depend on the season rather than arbitrary dates. This can be 
effectively developed, on an annual basis, by the Superintendent in 
partnership with officials from Dare and Hyde Counties.
    We believe that the seasonal closings of Village beaches has not 
been a problem that warrants the arbitrary and inconsistent dates 
outlined in the Final Environment Impact Statement (FEIS) upon which 
the ORV Management Plan was written.
ROUTES
    The ORV Routes outlined in the ORV Management Plan have 
shortcomings that will significantly impair the visitor experience for 
the majority who visit the Cape Hatteras National Seashore Recreational 
Area. Eleven historically recognized routes have been excluded. These 
crucial areas should be revised to allow an adaptive management process 
that would reopen these closure areas.
CORRIDORS
    Corridors are a vital tool in providing access while managing 
resources. The National Park Service should incorporate the use of 
corridors through and around buffers so the public does not suffer 
restricted access to an otherwise open area.
    Corridors effectively provide a small path around temporary 
resource closures in order to provide access to open areas that would 
otherwise be blocked. Corridors allow visitor access to an open area 
that may be sandwiched between two closed areas. These corridors have 
limited negative impacts to the protected species, but they are crucial 
to providing access during closures periods.
    In some instances, corridors can be made through or around closure 
areas. In other places, corridors can be established below the high 
tide line. Since unfledged chicks are not found in nests between the 
ocean and the high tide line, this type of pass through corridor would 
have no negative effect on wildlife and should be established 
throughout the seashore.
    In the example below, the visitors intended recreational area would 
be accessible through a small pass through corridor. Without this 
corridor, the area marked ``Open'' would actually be closed because it 
would otherwise be impossible to get there.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    .epsCorridors are vital to providing access in a way that does not 
hinder resource protection. Therefore, Dare County believes pass 
through corridors should be maintained for pedestrians and ORVs in all 
areas of the Cape Hatteras National Seashore Recreational Area 
throughout the entire breeding and nesting season.
ACCOMMODATIONS FOR HANDICAPPED PERSONS for safe access to all areas of 
        the seashore
    It is crucial that mobility impaired persons have free and open 
access to all areas of the seashore. It is fundamentally unfair that 
they be restricted to the areas directly in front of the villages as is 
now provided in the ORV Management Plan.
    Restricting access for the large number of handicapped visitors who 
frequent the Cape Hatteras National Seashore Recreational Area is a 
serious safety issue. Mobility impaired visitors depend upon their 
vehicle not only for transportation to the seashore, but as a necessary 
lifeline in the event of a medical emergency, a sudden change of 
weather or temperature conditions, or need for toilet facilities.
    Our mobility-impaired community includes those using wheelchairs, 
walkers, and canes. It also includes elderly visitors, many of whom are 
frail. Additionally, those coping with chronic medical needs could be 
hurt and caused to suffer. For example, visitors who need the 
continuous administration of oxygen would benefit from having their 
vehicle nearby as an energy-generating source for their oxygen supply 
system.
PREDATOR REMOVAL PROGRAM
    People who love animals are shocked when they discover that the 
National Park Service has an on-going program to trap and kill hundreds 
of mammals each year in the Cape Hatteras National Seashore 
Recreational Area. In an attempt to protect a few species of 
shorebirds, the Department of the Interior has decided to trap and kill 
their natural predators.
    This controversial program, euphemistically called ``Predator 
Removal,'' involves a small number of federally designated species, 
including the Piping Plover (Charadrius melodus), as well as some non-
federally listed shorebirds. However, none of the protected birds are 
classified as endangered, yet their natural predators are systemically 
trapped and killed.
    The mammals targeted for annihilation include Raccoon, Otter, Fox, 
Mink, Opossum, Muskrat and Nutria. Sadly, none of the special interest 
groups, who claim to defend wildlife, have raised their voice as 
advocates for the hundreds of mammals that have been systematically 
murdered each year.
    Dare County Commissioner, Jack Shea in an Op-Ed article wrote, 
``The environmentalists claim they want to protect wildlife, especially 
the innocent baby birds. But, what happens to the innocent baby 
raccoons, fox and mink whose murdered mother will never return home to 
the den?'' He asks a series of probing Questions, ``Is the life of one 
species more precious than others? If so, who decides? Where is the 
outrage? Why do the ``environmentalists'' not advocate protection for 
all species? Why have they not raised their voice in defense of these 
slaughtered mammals?'' He concludes, ``Perhaps their silence reveals 
the pragmatic truth that the greatest threat to birds and turtles is 
from natural predators, not humans Instead, they loudly condemn 
recreational access while touting a party line that tries to make 
humans the villain.''
ADDITIONAL COMMENTS
    The National Park Service in preparing its ORV Management Plan has 
made false, misleading and deceptive statements that warrant comment. 
We offer these additional comments in order to establish a clear and 
consistent record that reflects the position of Dare County -
        <bullet>  NPS said in its summary of the proposed ORV rule--
        ``minimizing conflicts among various users.'' In this comment, 
        and in others like it, NPS would have everyone believe that the 
        people who use the Cape Hatteras National Seashore Recreation 
        Area are in conflict with each other. We find this not to be 
        true.
           It is our experience that those who favor responsible ORV 
        access, which represents the overwhelming majority, have taken 
        great strides to accommodate the few who disagree.

           We believe there is something for everyone at America's 
        first national seashore and have a documented track record of 
        willingness to compromise and accommodate the needs of all user 
        groups. This is a matter of public record during the negotiated 
        rulemaking proceeding, of which Dare County was a participant.

        <bullet>  The Piping Plover was described by the National Park 
        Service as ``listed under the Endangered Species Act (ESA).'' 
        NPS in this brief statement omits to give the American people 
        the full truth about the species that prevents access to the 
        most popular portions of the seashore for most of the tourism 
        season.

           The Piping Plover is a non-indigenous ``threatened'' species 
        that is not ``endangered.'' Words have meaning. NPS has chosen 
        to describe this bird in a way that creates a false and 
        misleading impression to the American people.
        <bullet>  NPS stated that, ``A consent decree agreed to by the 
        plaintiffs, the NPS, and the interveners, Dare and Hyde 
        counties.''
           Here again, the National Park Service makes a statement that 
        warrants additional comment to clearly reflect our position.

           The County of Dare did in fact join as an intervener in the 
        consent decree. However, NPS fails to disclose that our 
        involvement was as a matter of practical necessity in order to 
        best represent the people of Dare County.

           The Consent Decree, prepared by a few special interest 
        groups behind closed doors, was never exposed to the light of 
        public comment and review.

           We entered the case as an intervener rather than risk 
        letting the special interest groups and a sympathetic Federal 
        Judge close the seashore entirely. It was a situation where we 
        had to choose the lesser of two evils. As Dare County Vice-
        Chairman Allen Burrus asked, ``Do we choose to get shot in the 
        foot, or in the head?''

           Although Dare County was a party to the Consent Decree as an 
        intervener, for NPS to imply that Dare County was in any way in 
        agreement with the Consent Decree is disingenuous.
        <bullet>  The National Park Service claimed it conducted a 
        ``small business survey.'' However, the work, which was done by 
        contractor RTI, was never concluded or published prior to the 
        close of public comments on the Environmental Impact 
        Statements. This prevented the public from having access to the 
        survey and being able to make informed comments about it.
           Following the eventual release of the small business survey, 
        we determined it was based upon a small sample size with a poor 
        rate of return. The skewed results of this survey stand in 
        stark contrast to sworn, notarized statements from business 
        owners that were submitted by Dare County during the public 
        comment process. Our survey of business owners documents a 
        consistent pattern of how the Consent Decree has hurt small 
        businesses.
        <bullet>  Finally, we challenge the NPS conclusion in saying 
        that the economic impact of the ORV rule: ``will not adversely 
        affect in a material way the economy, productivity, 
        competition, jobs, the environment, public health or safety or 
        State, local, or Tribal governments or communities.''
           The National Park Service has dismissed and ignored the 
        concerns of the local business community. The hard-working 
        small business owners of Dare County have indeed suffered harm 
        and will continue to do so under the ORV Management Plan.

           NPS may take comfort in saying the negative impact will not 
        be harmful in a ``material way.'' This statement is untrue and 
        insensitive to those in our community who have seen their 
        savings depleted, businesses ruined and have had to lay-off 
        valuable, long-term employees.

           The negative impact for our businesses has been already been 
        severe and profound. If the ORV Management Plan is allowed to 
        continue, it will cause even more harm to our fragile economy. 
        NPS is out of touch with the local business community and 
        insensitive to their needs and concerns.
ECONOMIC IMPACT
    In his remarks to the Subcommittee on National Parks, Forests and 
Public Lands, Dare County Chairman Warren Judge referenced comments 
made by several Hatteras Island business owners. These remarks are 
representative of the harm that has been done to Dare County business 
owners by restricting visitor access to the Cape Hatteras National 
Seashore Recreational Area.
    Family-owned businesses are the backbone of Dare County. Hard 
working, local families have for generations provided employment 
opportunities for the community, and offered outstanding service and 
hospitality to Outer Banks visitors.
    These small business owners do not ask for special favors or 
government handouts, just a fair opportunity to earn their part of the 
American dream.
    Unfortunately, the consent decree has had a devastating and unfair 
impact on many Dare County businesses.
    The consent decree has taken a heavy toll on a wide range of 
business types including--automotive parts & repair, bait & tackle 
shops, campgrounds, charitable service providers, child care centers, 
fishing rod builders, marinas, motels and cottages, professional 
artists, restaurants, and retail shops.
    Even businesses whose revenue has stayed level or showed a modest 
increase have accomplished this at a costly price. Many have had to cut 
back employee hours, forego much-needed capital improvements, and 
sacrifice profits.
CONCLUSION
    H.R. 4094 represents sound legislation for that will benefit the 
residents and visitors of the Cape Hatteras National Seashore 
Recreational Area.
    The people of Dare County have already suffered enough. Now we face 
even further economic insecurity under the newly enacted ORV Rule, 
which imposes greater restrictions than the consent decree.
    No one is more committed to preserving a solid, long-term, 
ecological future for the beaches of the Outer Banks than the people of 
Dare County. For generations our community has been on the vanguard of 
sustaining the natural resources in order to preserve them for our 
children and grandchildren to enjoy.
    Dare County supports science-based resource management and believes 
a careful balance between protection and access is provided in the 
Interim Management Strategy that would be reinstituted upon passage of 
H.R. 4094.
    H.R. 4094 would allow access decisions to be made by the Park 
Superintendent, who is ultimately accountable to Congress, rather than 
the courts or a rigid and flawed ORV Management Plan.
    On behalf of the residents and visitors of Dare County North 
Carolina, we respectfully ask you to help us preserve our culture, our 
history, and our way of life by supporting H.R. 4094.
    Respectfully submitted
                                 ______
                                 
    Mr. Bishop. All right, Mr. Couch, your turn.

 STATEMENT OF JOHN COUCH, PRESIDENT, OUTER BANKS PRESERVATION 
                  ASSOCIATION, NORTH CAROLINA

    Mr. Couch. Mr. Chairman, Committee members, Congressman 
Jones, thank you for the invitation to speak on this important 
piece of legislation.
    My name is John Couch. I am a businessman with two ongoing 
businesses in the village of Buxton. I represent the Outer 
Banks Preservation Association, an advocate for free and open 
beach access. Our motto has always been, ``Preserve and 
protect, not prohibit.''
    The rule instituted by the National Park Service has 
effectively taken the Nation's first national seashore 
designated by Congress to be a recreational area and turned it 
into a wildlife refuge without congressional authorization. 
This will forever diminish the visitors' experience in ways 
unintended by the enabling Act.
    H.R. 4094 will restore access and ensure that the Cape 
Hatteras National Seashore Recreational Area will be managed as 
intended, for recreation. It will also ensure that recreation 
will coexist with resource protection.
    The authors of the final rule strayed in their efforts. 
Their assessment of the visitor experience and the local 
economy is flawed. The guidelines and instruction provided by 
4094 address this.
    Visitors come to the Cape Hatteras National Seashore to 
participate in shore-based recreational activities. The range 
of family oriented activities includes swimming, fishing, 
lighthouse climbing, bird watching, surfing, kite boarding, and 
appeal to a wide cross-section of the American public. 
Regardless of the activity, almost all recreational 
opportunities occur on the beach, and these activities share a 
common need: the need to access the beach with gear in hand. 
Traditionally, beachgoers at Cape Hatteras have benefited from 
open access that predates the seashore.
    Our visitors have always understood that the value of the 
ORV is to transport family, friends, and equipment to the 
perfect, otherwise inaccessible location. Our enjoyment comes 
from the access, not from joyriding. Most beaches closed to ORV 
access are effectively closed to pedestrian access, where, 
without the means to transport family, children, elderly, and 
gear, the beach is inaccessible.
    The rule has permanently closed an additional 19 miles of 
beach to ORV access that has traditionally been available. And 
in these areas, only narrow strips of beach near parking lots 
are being used by walking visitors. The rule limits over 19 
miles of beach to ORV access to winter months only, when 
recreational opportunities are limited at best. The rule 
suggests 29 miles of beach are open year-round to access by 
ORV. In truth, temporary resource protection closures for non-
threatened or endangered species have already prevented both 
ORV and pedestrian access to most of these miles.
    Easter this year, 70 percent of ocean front between the top 
of the seashore to the end of Ocracoke Island was closed to ORV 
access. Easter found many visitors voicing their dismay and 
frustration, wondering who is responsible, and many vowing not 
to return. Temporary closures already implemented at Easter due 
to one piping plover, threatened species, three oystercatcher 
nests, not threatened or endangered, have taken 8 1/2 miles 
away from visitors. By Memorial Day and the start of the peak 
tourist season, beaches accessible by ORVs will likely be less 
than 10 miles and will remain that level until the end of 
August.
    Other surprises await our visitors. They will find that the 
short expanse of beach that they can access by ORVs must be 
vacated by 9 o'clock at night. No more beach bonfires or late-
night or late-evening picnics. They will find no morning access 
for sunrise viewing or early morning fishing. And, finally, the 
visitor will learn that the significantly reduced access comes 
at a price of $120 for an annual permit, $50 for a weekly 
permit, with no daily pass for short-term visitors.
    The National Park Service concluded that the impact of the 
rule on visitor experience is long-term moderate to major and 
adverse to ORV users and long-term beneficial to visitors who 
desire a vehicle-free beach experience. The Service does not 
point out that the vast majority of our visitors are ORV users 
and the majority of those that are not indifferent to ORV 
access, and that the visitors desiring a vehicle-free beach 
experience had many ORV miles available prior to the rule.
    The negative visitor experience as a result of the rule is 
directly responsible for the economic impact felt in the eight 
villages that lie within the seashore. For a tourist-based 
economy, the math is simple: no visitors, no business.
    When the Department of the Interior and the National Park 
Service courted the original property owners to join in the 
creation of the seashore, they quickly pointed out the 
financial gains that would be enjoyed through the development 
of visitor services. With more than a bit of initial hesitancy 
and suspicion, the villagers donated or sold their land, 
accepted the Park Service's encouragement, and built the 
infrastructure to support tourism. Today, all businesses on 
Hatteras Island are directly driven by tourism.
    Visitation has suffered for the past 5 years due to access 
closures implemented by the consent decree. Fall visitation, 
always threatened by the possibility of storms and hurricanes, 
will now suffer due to new permanent management closures and 
procedures under the final rule.
    Seven hundred twenty-three businesses, 3,117 weekly rental 
properties, and 225 charter boats are found on Hatteras and 
Ocracoke Islands. All directly, indirectly exist for the 
tourist business.
    Mr. Bishop. Mr. Couch, if I could ask you to give one 
closing statement, sentence.
    Mr. Couch. Thank you.
    I urge you to support the residents and the visitors of the 
Cape Hatteras National Seashore Recreational Area by passing 
H.R. 4094.
    Mr. Bishop. Good closing sentence. Thank you, sir.
    Mr. Couch. Thank you.
    [The prepared statement of Mr. Couch follows:]

                  Statement of John Couch, President, 
           Outer Banks Preservation Association, on H.R. 4094

    Mr. Chairman, committee members, Congressman Jones;
    Thank you for the invitation to speak on this important piece of 
legislation.
    My name is John Couch. I have lived and worked on the Outer Banks 
since my childhood in the 50's when my father brought our family to 
Hatteras Island. I am also a businessman with two ongoing businesses in 
the village of Buxton. I represent the Outer Banks Preservation 
Association, which was formed in the 1970's to be an advocate for free 
and open beach access at Cape Hatteras for visitors and residents 
alike. Our motto is, and has always been Preserve and Protect, Not 
Prohibit.
    The rule instituted by the National Park Service on February 15th 
has effectively taken the nation's first national seashore designated 
by Congress to be a ``recreational area'' and turned it into a wildlife 
refuge without congressional authorization. This will forever diminish 
the visitor experience in ways unintended by the enabling act.
    H.R. 4094 will restore access and ensure that the Cape Hatteras 
National Seashore Recreational Area will be used as intended, and as it 
has been used for generations--for Recreation. It will also ensure that 
recreation can co-exist with resource protection which is important to 
all National Parks, Seashores and Recreational Areas.
    The authors of the Final Rule strayed in their efforts. Their 
assessment of the environmental impact of the rule in two significant 
areas--the visitor experience, and the local economy--is flawed. The 
guidelines and instruction provided by H.R. 4094 addresses these flaws.
Visitor Experience
    The primary reason visitors come to Cape Hatteras is to participate 
in shore-based recreational activities. A range of family oriented 
activities, including swimming, fishing, lighthouse climbing, bird 
watching and more strenuous activities such as surfing and kite-
boarding, appeal to a wide cross-section of the American public. 
Regardless of the activity, virtually all of the recreational 
opportunities occur on the beach. That is what brings visitors to the 
Hatteras seashore--Access to Recreational Activities on the Beach. And 
these reasons for access share a common need--the need for beach access 
with gear in hand.
    Traditionally, beach goers at Cape Hatteras have benefitted from 
open access dating back to before the Seashore was established. The 
faulty visions some have of dune buggies racing down the beach, jumping 
dunes and cutting donuts are far from reality at the Seashore. Visitors 
here have always understood that the value of the ORV is to transport 
family, friends and equipment to the perfect spot on the beach that 
would otherwise be inaccessible. Our enjoyment comes from access, not 
from joy-riding.
    To most visitors, beaches closed to ORV access are effectively 
closed to pedestrian access, for without the means to transport family, 
children, elderly and gear, the beach is inaccessible.
    The extent to which the Rule restricts ORV and other use of the 
Seashore is substantial.
    The Rule has permanently closed an additional 19 miles of beach to 
ORV access that has traditionally been available, and in these areas 
only narrow strips of beach near parking lots are being used by 
pedestrian visitors.
    The Rule limits 19.1 miles of beach to ORV access to winter months 
only, when recreational opportunities are limited at best. Prior to the 
Rule, these beaches were accessible by ORV in the spring, winter and 
fall by visitors who scheduled their trips expecting this availability.
    The Rule claims 29 miles of beach are open year round to access by 
ORV. In truth, temporary resource protection closures for non-
threatened or endangered species have already prevented both ORV and 
pedestrian access to most of these miles during the height of our 
seasons.
    At Easter, this year, 70% of oceanfront between the top of the 
Seashore and the end of Ocracoke Island was closed to access by ORV. 
Some of this area, such as the 12 miles of the Pea Island National 
Wildlife Refuge, is understandably closed permanently to access by ORV. 
However, temporary closures already implemented at Easter, due to one 
piping plover (threatened) and three oystercatcher nests (not 
threatened or endangered) have already taken an additional 8.5 miles 
away from visitors. By Memorial Day and the start of the peak tourist 
season, beaches accessible by ORV will likely be less than 10 miles, 
and will remain at that level until August.
    Visitors also will encounter other surprises when they arrive. They 
will find that the short expanse of beach they can access by ORV must 
be vacated by 9:00 pm. No more beach bonfires or late evening picnics. 
They will find no morning access until 7:00 am, even though any good 
fisherman knows the morning bite will begin 30 minutes before sunrise 
and end long before they can get to their spot. And finally, the 
visitor will learn that the significantly reduced access they now have 
comes at a price of $120 for an annual permit, $50 for a weekly permit, 
and no daily pass for short term visitors.
    Easter found many visitors at restaurants, motels, realty 
companies, grocery stores, gift and tackle shops voicing their dismay 
and frustration, wondering who is responsible, and many vowing never to 
return.
    The National Park Service concluded that the impact of the Rule on 
visitor experience is ``long-term moderate to major and adverse to ORV 
users, and long-term beneficial to visitors who desire a vehicle free 
beach experience''. The agency does not point out that the vast 
majority of visitors are ORV users, or that the majority of those that 
are not ORV users are indifferent to ORV access, and that the visitors 
desiring a vehicle free beach experience had many such miles available 
prior to the Rule.
Economic Impact
    The negative visitor experience as a result of the Rule is directly 
responsible for the substantial economic impact felt in the eight 
villages on Hatteras and Ocracoke Islands. For a tourist based economy, 
the math is simple--No Visitors = No Business.
    When the Department of the Interior and National Park Service 
courted the original property owners to join in to the movement to 
create the Seashore, they were quick to point out the financial 
windfall that would be enjoyed by the villagers through the development 
of visitor services. With more than a bit of initial hesitancy and 
suspicion, the villagers eventually donated or sold their land, 
accepted the Park Service's encouragement and built the infrastructure 
to support tourism.
    Today, all businesses on Hatteras and Ocracoke islands are directly 
or indirectly driven by tourism.
    Springtime visitation has suffered for the past five years due to 
access closures implemented under the temporary consent decree and is 
suffering even more this year due to the more extensive closures in the 
Final Rule.
    Fall visitation, which is always threatened by the possibility of 
tropical storms and hurricanes, will now suffer due to new permanent 
closures and procedures under the Final Rule.
    With both the spring and fall shoulder seasons impacted by the 
Rule, businesses once prosperous are now struggling to survive. 
(Historically, 47% of visitation to Cape Hatteras occurred in the 
months of June, July and August. Conversely, 53% occurred in the other 
nine months.) Many have already failed. Unless relief is provided from 
the Rule, the only question is how many more will follow.
    Seven-hundred twelve businesses, 3,117 weekly rental properties and 
225 charter boats are found on Hatteras and Ocracoke Islands. All 
directly or indirectly exist for the tourist business. All have or will 
experience reduced income. All have or will have to survive with fewer 
employees, shorter hours for staff, and longer hours and hardships for 
the owners. Today, the unemployment rate in Dare County is 19% compared 
to 10% in 2008. Hyde County's unemployment rate has gone from 8% to 
13%. If statistics were available, I'm sure the Islands unemployment 
rates would be even worse than their parent counties.
    A few examples of what businesses have already experienced over the 
past five years include:
        <bullet>  Wayne Clark, owner of Edwards of Ocracoke Rooms and 
        Cottages in Ocracoke, has lost 15% of his spring business over 
        the past two years.
        <bullet>  Bob Eakes, owner of Red Drum Tackle in Buxton, has 
        lost 55% of annual business since 2007 and now has three 
        employees rather than ten.
        <bullet>  Frank Folb, owner of Frank and Fran's Fisherman's 
        Friend tackle shop in Avon, had a 20% drop in business the 
        first year of the consent decree and further drops since.
        <bullet>  Anne Bowers, owner of Indian Town Gallery in Frisco, 
        has lost 70% of her March business due in part to the absence 
        of springtime fishermen who always want to buy a ``guilt'' gift 
        for their wives and girlfriends.
        <bullet>  I have experienced a 30% loss in my annual business 
        at the Lighthouse Service Center and Lighthouse Auto Parts in 
        Buxton. Under the consent decree when the beaches closed in the 
        spring, my business dropped. When the beaches reopened in 
        August, my business improved. The beaches are already closed 
        this year. It remains to be seen what will happen in the fall 
        since many beaches will never reopen under the Rule.
    Many of the business owners on Hatteras and Ocracoke scratch their 
heads and comment with bitterness that although the federal government 
has a goal of job creation, elsewhere it appears to have a goal of job 
elimination here.
    A timely example of the visitor and economic impact will occur this 
weekend, April 28th and 29th. For 26 years, fishermen added their names 
to the waiting list for one of the 600 spots in the annual fishing 
tournament sponsored by the 4-Plus club of Richmond, Virginia. Last 
year, the participation level fell below the 600 maximum to 550 for the 
first time ever. As of Wednesday, only 373 have registered for this 
year's event. Those choosing not to participate have cited the new fees 
and lack of access as the reasons they will not return. The 4 Plus 
tournament is the first of six long-standing annual surf fishing 
tournaments at the Seashore. What will happen at the remaining five?
What H.R. 4094 means to us
    H.R. 4094 will replace the destructive Final Rule with the Interim 
Plan vetted and originally implemented in 2007 on a temporary basis. 
This Plan will restore much of the access and recreational 
opportunities denied the American public under the Rule, while 
continuing to protect the Seashore's wildlife and other natural 
resources.
    H.R. 4094 will establish guidelines to ensure punishing and 
unnecessary closures and restrictions will not be re-created in the 
future as new rules are promulgated.
    H.R. 4094 will ensure that, as new rules are promulgated, species 
protection will be instituted based on peer-reviewed science.
    H.R 4094 will further demonstrate the importance of public access 
to Federal lands for recreational use in appropriate traditional and 
historical manners. Through the passage of the Sportsmen's Heritage Act 
of 2012 (H.R. 4089) on April 17th,the House recognized the importance 
of angler access to Federal lands for recreational use.
    H.R. 4094 will not require any new appropriations, and, through a 
reduction in administrative complexity, may offer an opportunity for 
personnel and construction savings over that anticipated by the Rule.
    Finally, H.R. 4094 will ensure that, in the future, the Cape 
Hatteras National Seashore Recreational Area will be managed such that
        <bullet>  The Seashore's wildlife and other natural resources 
        will be protected without unnecessarily restricting public 
        access, use and enjoyment, and
        <bullet>  Traditional, cultural, recreational and commercial 
        values so important to the visiting public and residents will 
        be respected and maintained.
    I urge you to support the residents and visitors of the Cape 
Hatteras National Seashore Recreational Area by passing H.R. 4094.
    Thank you Congressman Jones for introducing this legislation, and 
thank you Mr. Chairman and members of the committee for this 
opportunity to testify on this critical issue.
Additional Information
    The Cape Hatteras Access Preservation Alliance (CHAPA) is a project 
of the Outer Banks Preservation Association. The following 
organizations support the access positions that have been developed and 
presented by CHAPA.
        <bullet>  North Carolina Beach Buggy Association (NCBBA)
        <bullet>  Cape Hatteras Anglers Club
        <bullet>  Dare County Board of Commissioners
        <bullet>  Hyde County Board of Commissioners
        <bullet>  American Sportfishing Association (ASA)
        <bullet>  United Mobile Access Preservation Alliance (UMAP)
        <bullet>  United Four Wheel Drive Associations
        <bullet>  Watersports Industry Association, Inc.
        <bullet>  Recreational Fishing Alliance
        <bullet>  Outer Banks Chamber of Commerce
        <bullet>  Dare County Tourism Board
        <bullet>  Ocracoke Civic and Business Association
        <bullet>  Hatteras Village Civic Association
        <bullet>  Avon Property Owners Association
        <bullet>  Assateague Mobile Sportsfishermen Association
        <bullet>  New Jersey Beach Buggy Association
        <bullet>  Long Island Beach Buggy Association
        <bullet>  Rhode Island Mobile Sportsfishermen
        <bullet>  Davis Island Fishing Federation
        <bullet>  Massachusetts Beach Buggy Association
        <bullet>  Virginia Coastal Access Now
        <bullet>  Virginia Beach Anglers Club
        <bullet>  Tidewater Anglers Club
        <bullet>  Delaware Mobil Surf Fishermen
        <bullet>  Farragut Striper Club
        <bullet>  Association of Surf Angling Clubs
        <bullet>  CCA of North Carolina


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Bishop. All right. Let's turn to the other area of 
concern, the oversight portion that deals with what is 
happening in Florida.
    First to Mr. Wright, Kenneth Wright, who is the Vice 
Chairman of the Florida Fish and Wildlife Conservation 
Commission. Same 5-minute rule, please.

STATEMENT OF KENNETH W. WRIGHT, VICE CHAIRMAN, FLORIDA FISH AND 
                WILDLIFE CONSERVATION COMMISSION

    Mr. Wright. Good morning, Chairman Bishop and Ranking 
Member and members of the Subcommittee, and particularly the 
good Congressman from the great State of Florida, Congressman 
Rivera. And I appreciate the comments made by the earlier 
Congress Members on the previous panel.
    My name is Ken Wright. I am the Vice Chair of the Florida 
Fish and Wildlife Conservation Commission, which I will refer 
to as the FWC. We are the agency responsible for managing fish 
and wildlife resources in the State of Florida. And I 
appreciate the opportunity to address our concerns regarding 
the development of a new general management plan for the 
Biscayne National Park.
    Located only 30 miles from downtown Miami, this park is 
truly a national and State treasure. Fishing, boating, diving, 
wildlife viewing, or just basking in the Florida sunshine have 
long been longstanding traditions of citizens of South Florida 
and countless visitors even from around the world. The 
recreational activities within the park provide a substantial 
economic driver for South Florida, which creates a ripple 
effect throughout the State of Florida as an economic stimulus.
    I am here to express the view that the State of Florida and 
my agency are essential partners with the Federal Government in 
making sure the park will be available to be enjoyed for 
generations to come. We know from our experience that in order 
to achieve our goals, public access and recreation must be 
sustained. And, of course, it must be sustained in a 
sustainable manner. There must be a balance between 
accessibility and appropriate management.
    We in Florida and particularly the Florida FWC have many 
years of experience, and we are confident that public enjoyment 
of natural resources can be balanced with resource protection. 
This approach should recognize and respect traditional 
activities like boating and fishing as the critical fabric to 
resource conservation and should not be taken away from the 
public when less and more effective options are readily 
available.
    I have a number of points to make.
    We are concerned that the preferred alternative for a new 
plan will unnecessarily prohibit fishing, both recreational and 
commercial, in a 10,000-plus-acre marine reserve zone. While 
this area constitutes 7 percent of the entire water area of the 
park, as has been noted, it is some of our most popular and 
productive fishing grounds in the park. This prohibition will 
have a negative impact on public use and the local economy, yet 
there are no efforts to try less restrictive management 
strategies.
    These actions lack sufficient scientific basis. They are 
based largely on anecdotal and intuitive beliefs of expected 
outcomes. Studies relied upon are from much different 
ecological situations, much different in scale and different in 
stress factors. The plan includes broad assumptions but no 
analysis or metrics for their support.
    Management of wide-ranging fishery stocks must be addressed 
on a much larger and broader scale than simply the park area to 
be successful, along with appropriate monitoring and with 
regulation. Such systems are in place in Florida.
    The plan states no-fishing zones are effective for managing 
coral reef fisheries and that less restrictive options would be 
difficult to enforce. It is disturbing that these statements 
clearly pertain to fisheries management yet are made without 
recognition of the provision in an MOU between the park and the 
Florida FWC that states no-take areas shall be for, quote, 
``other than sound fisheries management'' and without 
recognition of the fact that Florida FWC is the agency that 
provides the majority of the boating and resource law 
enforcement within the park. And we don't believe that less 
restrictive options would be any more difficult to enforce than 
a no-take zone.
    The input of boaters and anglers provided throughout the 
process has essentially been ignored. Nor did the Park Service 
adequately engage the State of Florida nor the FWC in the 
process of selecting the preferred alternative, particularly 
with regard to a fishing management issue. The preferred 
alternative is inconsistent with our coastal management 
program, and it ignores the role that the FWC and the State of 
Florida would have in this process.
    We are disappointed that they proposed to take the no-take 
zone action without adequately considering less impactive 
alternatives. We are cautiously optimistic that if we are able 
to continue to work with the Park Service, we have experience, 
Mr. Chairman and Members, in managing fish resources and would 
love to continue to do so, but we don't think this closure is 
necessary.
    Thank you.
    Mr. Bishop. Thank you. Appreciate it.
    [The prepared statement of Mr. Wright follows:]

 Statement of Kenneth W. Wright, Vice-Chair, Florida Fish and Wildlife 
    Conservation Commission (FWC), on ``Access Denied: Turning Away 
                      Visitors to National Parks''

    The Florida Fish and Wildlife Conservation Commission (FWC) is the 
agency responsible for managing fish and wildlife resources for the 
State of Florida. Ken Wright, Vice-Chair of FWC will address the 
agency's concerns regarding the development of a new General Management 
Plan for Biscayne National Park (Park), Florida.
Background
    Located only 30 miles from downtown Miami, the Park is truly a 
national and state treasure boasting beautiful clear blue waters, 
extensive coral reefs, amazing marine life, a variety of sea birds, and 
rare hardwood hammock islands. People flock to the Park to enjoy a wide 
array of outdoor recreational experiences. Fishing, boating, diving, 
wildlife viewing, or just basking in the Florida sunshine are long 
standing traditions for citizens of south Florida and countless 
visitors from around the world. Recreational activities in the Park are 
a substantial economic driver for south Florida, creating a ripple 
effect of economic stimulus across the entire state.
    The Park is currently operating under a General Management Plan 
(GMP) that was completed in 1983. The National Park Service (NPS) is 
revising and updating the GMP to better address current and future 
conditions and various management challenges. The new GMP proposes 
alternatives for management of the Park for the next 20 or more years. 
The FWC has significant concerns with the management actions that are 
proposed in the GMP by the NPS, but are hopeful and guardedly 
optimistic that these concerns can be resolved through further 
coordination with the NPS.
Overview
    The FWC takes stewardship of the natural resources and public 
interest in this Park very seriously. The FWC recognizes that the State 
of Florida is an essential partner with the Federal Government in 
making sure the Park will be appreciated and enjoyed by generations to 
come. Floridians and particularly the citizens of south Florida have 
the keenest interest and the most at stake when it comes to the future 
of this wonderful Park.
    To achieve these goals, public access and recreation must be 
sustained and must be sustainable. The Park must be managed carefully 
to maintain the integrity and diversity of the natural features that 
are so attractive. The good news is through many years of experience 
and scientific study, it has been proven that public enjoyment of 
natural resources can be readily balanced with resource protection by 
using a measured approach and proper management tools. A measured 
approach must recognize and respect traditional activities like boating 
and fishing as critical to the very fabric of resource conservation and 
restoration in the Park, and should not be taken away from the public 
when less restrictive and less intrusive options are readily available.
    The following are five key points that summarize the FWC's 
concerns. It should be noted that a ``no-take zone'' is a term that is 
used interchangeably in this document with a ``Marine Reserve Zone''. A 
``Marine Reserve Zone'' is the term used by the Park to implement a no-
take area, wherein all fishing activities are prohibited.
    Point one: The GMP states that no-take zones (i.e., Marine Reserve 
Zones) are more effective for managing coral reef fisheries populations 
than other less restrictive options, and further states that less 
restrictive options would be difficult to enforce. It is highly 
troubling that such statements are clearly all about fisheries 
management and are made without recognition of a provision in the 
Memorandum of Understanding (MOU) between the NPS and the FWC that only 
agrees to no-take areas under the GMP process for purposes ``other than 
sound fisheries management'', and without recognition of the fact that 
the FWC is the primary provider of resource and boating law enforcement 
support in the Park.
    Point two: The Marine Reserve Zone included in the preferred 
alternative for the new GMP, will unnecessarily prohibit all 
recreational and commercial fishing in a 10,522 acre area. The GMP 
notes that the Marine Reserve Zone would represent only 7% of the 
entire water area of the Park, but fails to include that the Zone would 
encompass some of the most popular and productive fishing grounds in 
the Park. Furthermore, the Marine Reserve Zone will have significant 
negative impacts on public use and the local economy and was proposed 
without serious consideration of less restrictive management 
strategies.
    Point three: There is insufficient scientific basis to support 
fisheries closures included in the preferred alternative. The GMP cites 
scientific studies relative to restoration of coral reef systems, but 
these studies were done in much different ecological situations, on a 
much different scale, and do not have the same environmental conditions 
or stress factors. It is troubling that the GMP includes broad 
assumptions regarding the effectiveness of no fishing zones but 
includes no analyses, metrics, or any other quantifiable measures to 
support these statements. Moreover, there is no consideration given to 
the fact that management of wide ranging fisheries stocks must be 
addressed on a much broader scale than the Park to be successful using 
more a comprehensive system of monitoring and regulation. Such a system 
is already in place for the coastal waters of the Atlantic.
    Point four: The input and interests of boaters and anglers provided 
in good faith during the GMP planning process and prior to selection of 
the preferred alternative were not adequately considered by NPS. In 
addition, the NPS did not adequately engage the State of Florida and 
the FWC in the process of selecting the preferred alternative, 
particularly regarding the matter of fisheries management and 
associated restrictions. This concern is amplified by the fact that 
since 1970, the State of Florida has conveyed a significant amount of 
acreage to the NPS to be incorporated into the Park, and further 
amplified by the fact that the NPS agreed through the MOU to share 
responsibilities and authorities regarding fisheries management with 
the FWC formalized in a Fishery Management Plan.
    Point five: Implementing the preferred alternative would be 
inconsistent with Florida's federally approved Coastal Management 
Program, and therefore inconsistent pursuant to the Coastal Zone 
Management Act passed by the United State Congress. The Park has not 
acknowledged the right of the State of Florida to manage its fish and 
wildlife resources in a consistent manner as provided for by the 
Coastal Zone Management Act. Additionally, the Park has also not 
adhered to the cooperative nature of the MOU that, if followed, would 
likely have avoided inconsistencies with the Florida Coastal Management 
Program.
    It is important to note that the FWC has been engaging in 
constructive dialogue with the NPS regarding fisheries management 
issues contained in the GMP, but only since the release of the GMP to 
the public. The FWC has offered a very workable solution that honors 
the cooperative commitments and recognizes the shared goals and 
responsibilities of the two levels of government. The FWC proposes that 
the elements of the GMP regarding no-take zones and other fisheries 
management issues be withdrawn from the GMP, and alternatively 
evaluated as part of the Fishery Management Plan development process. 
This would allow the agencies to address these issues in a 
collaborative and transparent manner in coordination with interested 
stakeholders, and would allow the GMP to move forward without delay.
Supporting Information
A. Memorandum of Understanding: Fishery Management Plan and fisheries 
        management coordination
    In 2002 and subsequently in 2007, the FWC entered into a Memorandum 
of Understanding (MOU) with the Park to ``facilitate the management, 
protection, and scientific study of fish and aquatic resources'' within 
the Park ``by improving communication, cooperation and coordination'' 
between the FWC and the Park (Appendix A). The MOU provides relevant 
background information, lists objectives to be achieved, outlines 
regulatory authorities, and details expectations of work on behalf of 
both the FWC and the Park for the mutual benefit of the aquatic 
resources within the Park. One of the tasks identified in the MOU is 
the joint development of a comprehensive fisheries management plan. The 
purpose of the Fishery Management Plan is to provide for the long-term 
management of fish and aquatic resources within the Park, separately 
yet complementary to a GMP.
    The development of the Fishery Management Plan is ongoing, and the 
GMP specifically states:
        ``Due to this ongoing planning process, the GMP will not 
        address fisheries management in its alternatives'' (page 16 of 
        the GMP). In fact, however, Alternatives 2 through 5 of the GMP 
        do address fisheries management, either directly or indirectly, 
        by proposing to establish zones where fishing activities would 
        be prohibited, access would be limited, additional permits 
        would be required, and limitations or prohibitions would be 
        placed on the use of harvesting gear, internal combustion 
        motors, and vessel type, size and speed. All ten of the 
        proposed zones in the GMP manage fishing activities in some 
        manner, and the GMP specifically identifies ``managing 
        recreational [and commercial] fishing in the interest of sound 
        conservation'' as a management action in the majority of the 
        zones' descriptions (pages 48-58 of the GMP).
    In addition to addressing fishery management issues in the GMP, the 
proposed management actions within the GMP have not been jointly 
evaluated with the FWC, nor was the agency consulted in advance of 
these actions being proposed and released to the public for comment. 
This is also in direct conflict with the MOU, which states:
        Article III--Statement of Work:
        A. FWC and the Park agree to:
        . . .2. Acknowledge that the FWC will play a crucial role in 
        implementing and promulgating new regulations as may be deemed 
        appropriate, as well as take other management actions to 
        achieve the mutual objectives for the management of fisheries 
        within the boundaries of the Park for the term of this MOU. 
        However, the agencies agree to consult with each other on any 
        actions that they may propose to be taken to conserve or 
        protect fish populations and other aquatic resources within 
        Park boundaries or to further regulate the fisheries.
        . . .5. Consult with each other and jointly evaluate the 
        commercial and recreational harvest of fishery resources within 
        the Park. Such consultation and evaluation, as set forth in the 
        enabling legislation establishing the Park, should include a 
        full review of all commercial and recreational fishery 
        practices, harvest data, permitting requirements, techniques 
        and other pertinent information for the purposes of determining 
        to what extent mutually agreed upon fishery management goals 
        are being met within the Park and to determine what additional 
        management actions, if any, are necessary to achieve stated 
        management goals.
    The enabling legislation establishing the Park and the MOU executed 
in good faith clearly call for consultation and coordination with the 
State of Florida/FWC regarding fisheries management. The Fishery 
Management Plan is the most appropriate tool to support this 
consultation and coordination. The proposed regulatory actions in the 
GMP that affect fishing activities combined with the lack of advanced 
agency coordination make it abundantly evident that the Park's 
regulatory strategy is to address fisheries management issues within 
the context of the GMP, and outside of the framework of the MOU and the 
Fishery Management Plan.
    Accordingly, the FWC has respectfully called for the NPS to honor 
these requirements and commitments by withdrawing fishery- and fishing-
related provisions from the GMP, and working closely with the FWC and 
stakeholders to develop proposals that reflect a better balance between 
conservation and recreation in the Fishery Management Plan.
B. Memorandum of Understanding: Use of unnecessarily restrictive 
        management actions
    The FWC and the Park have differing viewpoints regarding the use of 
marine reserves or no-take areas as a management strategy. This was 
specifically addressed in the MOU as follows:
        WHEREAS, FWC and the Park agree to seek the least restrictive 
        management actions necessary to fully achieve mutual management 
        goals for the fishery resources of the Park and adjoining 
        areas. Furthermore, both parties recognize the FWC's belief 
        that marine reserves (no-take areas) are overly restrictive and 
        that less-restrictive management measures should be implemented 
        during the duration of this MOU. Consequently, the FWC does not 
        intend to implement a marine reserve (no-take area) in the 
        waters of the Park during the duration of this MOU, unless both 
        parties agree it is absolutely necessary. Furthermore, the FWC 
        and the Park recognize that the Park intends to consider the 
        establishment of one or more marine reserves (no-take areas) 
        under its General Management Planning process for purposes 
        other than sound fisheries management in accordance with 
        Federal authorities, management policies, directives and 
        executive orders. . .
    The Park did not seek the least restrictive management actions to 
accomplish management goals, and did not propose a Marine Reserve Zone 
in the GMP ``for purposes other than sound fisheries management.'' The 
GMP states that the proposed Marine Reserve Zone ``would be about 7% of 
the waters of the Park, and less than 13% of the offshore areas of the 
park'' (page 82 of the GMP). Whether intentional or not, this reference 
to ``waters'' and ``offshore areas'' instead of actual ``fishing 
areas'' creates the illusion that the proposed Marine Reserve Zone is a 
very small area in comparison to the rest of the Park, ``. . .while not 
being so large as to completely eliminate the opportunities for fishing 
any of the park's reef areas'' (page 327 of the GMP). The reality is 
that the proposed Marine Reserve Zone includes some of the most popular 
reef fishing areas within the Park. Combined with nine other proposed 
Zones that will restrict or eliminate fishing opportunities either 
directly or indirectly, these actions will have a serious negative 
impact on fishing within the Park. The management actions proposed in 
the GMP represent the most extreme tools available for resource 
management in these selected areas within the Park, ignoring 
alternative ways to achieve desired resource improvements without 
sacrificing the public's ability to access portions of the Park for 
fishing.
C. Lack of information to support proposed management actions
    The FWC recognizes that the NPS has different but complementary 
goals for managing Florida's fish and wildlife resources located within 
the Park's boundaries. The FWC also recognizes the significant value of 
the habitat resources within the Park to recreational and commercial 
fisheries, and the need to protect them. While the FWC supports sound 
resource management within the Park, the FWC cannot support how certain 
management actions in the GMP have been developed and proposed because 
of the lack of scientific evidence and lack of consideration of public 
access and use.
1. The Science
    The Park has failed to provide the scientific evidence necessary to 
support the need for a complete fishery closure in the Marine Reserve 
Zone. For example, data or analyses demonstrating the conservation 
benefits achieved by a complete fishery closure as compared to other, 
less restrictive management measures (e.g., catch-and-release fishing, 
size or slot limits, and closed seasons) were never presented in the 
GMP or specifically discussed with the FWC before releasing the GMP. 
Instead, the GMP states:
        Scientific data indicates that no-take zones are more effective 
        at reducing mortality, especially for reef species, than other 
        methodologies, including catch and release, slot limits, etc. 
        Additionally, a catch and release zone would be difficult to 
        enforce. Therefore, within this zone, recreational and 
        commercial fishing would be prohibited to encourage long-term 
        protection of the reef ecosystem (page 82 of the GMP).
    Since no data, analyses, or any other quantifiable measure is 
provided to support these statements, it is impossible for the FWC to 
evaluate their scientific credibility. Furthermore, the FWC provides 
the boating and resources enforcement in the Park. Enforcement of less 
restrictive management measures are no more difficult for the agency to 
enforce than no-take zones--both require officers to patrol and check 
boaters/anglers to ensure compliance with whatever the regulation may 
be.
    The FWC is also seriously concerned that, although the proposed 
Marine Reserve Zone is supposed to provide ``. . .beneficial impacts on 
fisheries, and submerged aquatic communities. . .'' (page iv of the 
GMP), no data or other scientific evidence is provided to evaluate 
whether this Zone was designed to provide protection from the full 
suite of known threats (e.g., water quality and other non-fishing, 
human-caused stressors) that can affect the biodiversity and long-term 
viability of coral reef ecosystems. It is well documented in scientific 
literature that non-fishing activities such as diving and snorkeling 
can have a significant impact on reef communities, yet the Park is not 
proposing to manage these activities and is only focusing on fishing 
activities. Had the options for managing each threat been the subject 
of appropriate assessments, it would likely have been apparent that 
area closures, such as the proposed Marine Reserve Zone, represents an 
inappropriate or at least an inefficient mechanism for the management, 
precautionary or otherwise, of many recognized threats, including those 
from fishing and diving.
    Common ``unintended consequences'' (e.g., potential impacts caused 
by displacement of fishing effort to areas outside the no-take zone) of 
implementing marine no-take zones that are well documented in the 
scientific literature, also seem to have not been evaluated by the 
Park. For example, the Park's Preferred Alternative, which includes the 
proposed Marine Reserve Zone, lacks any evaluation of the potential 
negative impacts caused by increased fishing effort outside the Zone by 
fishers displaced to nearby areas where fishing would continue to be 
allowed. The GMP states:
        Even though fishing pressure may increase outside this zone 
        [emphasis added], the expected increase in size and abundance 
        of fish within the Marine Reserve Zone is expected to have a 
        ``spillover'' effect outside the zone, as documented in other 
        Marine Reserve Zones worldwide (page 230 of the GMP).
    Again, no analyses, metrics, or any other quantifiable measure is 
provided to support this statement, much less how it relates to the 
specific no-take zone being proposed in the Park. What the Park is 
presenting as the science supporting their proposed management actions 
is that studies of no-take zones in the Florida Keys have shown 
conservation benefits to coral reef ecosystems, including the reef fish 
communities therein, to a ``more natural state.'' In other words, if 
no-take zones are good for the Florida Keys, they must be good for 
Biscayne Bay. This kind of extrapolation should not be made without 
working through a comprehensive and collaborative analysis of all 
factors influencing the health and recovery of coral reef ecosystems in 
the Park to provide a valid scientific basis for evaluation of a number 
of management options that ultimately demonstrate: (1) the conservation 
benefits likely to be achieved by management actions; and (2) whether 
the same conservation benefits could be achieved by applying less 
restrictive management actions.
    In summary, the Park has failed to provide the scientific evidence 
necessary to support the proposed Marine Reserve Zone. Furthermore, the 
proposed Marine Reserve Zone affects fishing practices that are already 
well-managed by state and federal agencies, according to well-
established and scientifically credible conservation standards. The FWC 
is concerned the focus on restricting fishing and boating is diverting 
attention from the suite of real threats potentially affecting both 
protected and unprotected areas in the Park including water quality 
issues.
2. Public Access and Use
    The GMP proposes to implement zones that have the potential to 
significantly limit access by fishers through vessel operation (e.g., 
vessel speed, vessel size and motor type). Strategies such as slow-
speed or non-combustion engines zones used to protect resources can be 
important management tools. On the other hand, these strategies also 
have the potential to impact resources if not designed to avoid or 
minimize access limitation. It is a commonly held misconception that 
fishers continue to have access to areas for fishing after slow-speed 
or non-combustion engine management strategies are implemented, because 
in theory fishers can still pole, troll, or operate a vessel at limited 
speed in order to fish. In reality, many fishers do not utilize these 
areas because of factors that significantly contribute to 
accessibility. These factors include public and private boat launch 
locations, currents, tides, prevailing winds, and how to get in and out 
of a zone quickly in the event of bad weather or with enough time to 
fish a tide. As mentioned above, access limitation may result in 
concentrating resource impacts in adjacent areas that are not managed 
under these strategies, or concentrating resource impacts in smaller, 
accessible portions of the areas managed under these strategies because 
factors that contribute to accessibility were not considered during the 
planning process.
D. ``Who has management authority in Biscayne National Park?''
    The issue of management authority of fish and wildlife in the Park 
has been discussed by the FWC and the NPS for many years. When only 
considering the state and federal laws that apply to the establishment 
of the Park, it is a situation the two agencies have simply had to 
agree to disagree.
    The current authority issue has arisen in response to the State of 
Florida's review of the draft version of the Park's GMP under the 
federal Coastal Zone Management Act. The Coastal Zone Management Act, 
passed by Congress and implemented by NOAA, requires that activities 
conducted by federal agencies (or on behalf of federal agencies) 
affecting the land or water uses or natural resources of a state's 
coastal zone be fully consistent with each state's coastal management 
program. Each state's coastal management program must be approved by 
NOAA. Florida's approved Coastal Management Program allows the State to 
review federal activities affecting the land or water uses or natural 
resources of Florida for consistency with Florida's Coastal Management 
Program.
    The management actions proposed by the Park in the GMP are not 
fully consistent with the Florida Coastal Management Program. 
Specifically, the Park has not fully taken into account the right of 
the State of Florida to manage its fish and wildlife resources in a 
consistent manner as provided for by the Coastal Zone Management Act. 
If the Park had adhered to the cooperative nature of the MOU, it would 
have likely avoided inconsistencies with the Florida Coastal Management 
Program.
The Solution
    The FWC is disappointed that the Park chose to propose the most 
restrictive management actions without adequately considering less 
restrictive management options that would likely accomplish the same 
goals. The solution moving forward is for the NP to follow the 
``Purpose of the Plan'' as stated in the GMP: ``Ensure that this 
foundation for decision making has been developed in consultation with 
interested stakeholders and adopted by the National Park Service 
leadership after an adequate analysis of the benefits, impacts, and 
economic costs of alternative courses of action'' (page 6 of the GMP). 
This can be accomplished by removing fisheries management issues from 
the GMP, and instead provide for an evaluation of alternative fisheries 
management strategies in the Fishery Management Plan developed in 
consultation with the FWC and interested stakeholders. This will not 
delay finalizing the GMP, and it will allow for a more balanced 
approach to management.
                                 ______
                                 

                               Appendix A

                      Memorandum of Understanding

                                between

    the State of Florida, Fish and Wildlife Conservation Commission

                                  and

           the National Park Service, Biscayne National Park

                    NPS Agreement Number G5250H0083

ARTICLE I--BACKGROUND AND OBJECTIVES
    WHEREAS, The purpose of this Memorandum of Agreement (MOU) is to 
facilitate the management, protection and scientific study of fish and 
aquatic resources within the National Park Service, Biscayne National 
Park (hereinafter referred to as the Park) by improving communication, 
cooperation and coordination between the Florida Fish and Wildlife 
Conservation Commission, (hereinafter referred to as the FWC) and the 
Park; and
    WHEREAS, Biscayne National Monument was established by Congress in 
1968 ``in order to preserve and protect for the education, inspiration, 
recreation, and enjoyment of present and future generations a rare 
combination of terrestrial, marine, and amphibious life in a tropical 
setting of great natural beauty'' (PL 90-606). The Monument was later 
expanded in 1974 (PL 93-477), and again in 1980 (PL 96-287), to its 
current size of 173,000 acres (270 square miles), when it was also 
redesignated as the Park, where excellent opportunities are provided 
for fishing, snorkeling, scuba diving, boating, canoeing, kayaking, 
windsurfing and swimming; and
    WHEREAS, the State of Florida conveyed sovereign submerged lands to 
the United States in 19.70 to become part of Biscayne National 
Monument; and
    WHEREAS, the Park is made up predominantly of submerged lands (95 
percent), and may be divided generally into three major environments: 
coral reef, estuarine and terrestrial. The boundaries of the Park begin 
at the west mangrove shoreline, extend east to Biscayne Bay (including 
seagrass communities and shoals), the keys (including hardwood 
hammocks, mangrove wetlands, sandy beaches and rocky inter-tidal 
areas), the reef, and continue to their easternmost extent at a 
contiguous 60-foot depth contour. The northern boundary of the Park is 
near the southern extent of Key Biscayne, while the southern boundary 
is near the northern extent of Key Largo, adjacent to the Barnes Sound 
and Card Sound areas; and
    WHEREAS, Biscayne Bay has also been designated by the State of 
Florida as an Aquatic Preserve, Outstanding Florida Water, Outstanding 
National Resource Water (pending ratification of State water quality 
standards) and lobster sanctuary under Florida Law, and by Dade County 
as an aquatic park and conservation area; and
    WHEREAS, both FWC and the Park have responsibilities under Federal 
and State laws and regulations that affect fish and other aquatic 
resources within the Park; and
    WHEREAS, FWC and the Park agree that ``when possible and 
practicable, stocks of fish shall be managed as a biological unit'' 
(Chapter 370.025(d) Florida Statutes). This statement is intended to 
recognize that measures to end overfishing and rebuild stocks are most 
effective when implemented over the range of the biological stock; 
however, it is not intended to preclude implementation of additional or 
more restrictive management measures within the Park than in adjacent 
State waters as a means of achieving mutual objectives; and
    WHEREAS, FWC and the Park agree that properly regulated commercial 
and recreational fishing will be continued within the boundaries of the 
Park. FWC and the Park recognize and acknowledge that commercial and 
recreational fishing constitutes activities of statewide importance 
that benefit the health and welfare of the people of the State of 
Florida. The parties also recognize and acknowledge that preserving the 
nationally significant resources of the Park to a high conservation and 
protection standard to be agreed upon by both parties in the fishery 
management plan for all citizens to enjoy is of statewide as well as 
national importance, and as such, will also benefit the health and 
welfare of the people of the State of Florida; and
    WHEREAS, FWC and the Park agree to seek the least restrictive 
management actions necessary to fully achieve mutual management goals 
for the fishery resources of the Park and adjoining areas. Furthermore, 
both parties recognize the FWC's belief that marine reserves (no-take 
areas) are overly restrictive and that less-restrictive management 
measures should be implemented during the duration of this MOD. 
Consequently, the FWC does not intend to implement a marine reserve 
(no-take area) in the waters of the Park during the duration of this 
MOD, unless both parties agree it is absolutely necessary. Furthermore, 
the FWC and the Park recognize that the Park intends to consider the 
establishment of one or more marine reserves (no-take areas) under its 
General Management Planning process for purposes other than sound 
fisheries management in accordance with Federal authorities, management 
policies, directives and executive orders; and
    WHEREAS, both parties wish this MOU to reflect their common goals 
and intended cooperation and coordination to achieve those goals.
ARTICLE II--AUTHORITY
    In the Organic Act of 1916, U.S.C. Sec. 1, Congress created the 
National Park Service (NPS) to promote and regulate the National Park 
System for ``the purpose of conserving the scenery and the natural and 
historic objects and wildlife therein and to provide for the enjoyment 
of the same in such manner and by such means as would leave them 
unimpaired for the enjoyment of future generations.'' Congress further 
determined, in 16 U.S.C. Sec. la-I, that the authorization of 
activities within units of the National Park System be construed, and 
the protection, management and administration of national parks be 
conducted, in the light of high public value and integrity of the 
National Park System.
    The legislation establishing the Park states that the ``Secretary 
shall preserve and administer the park in accordance with the 
provisions of sections 1 and 2 to 4 of this title, as amended and 
supplemented. The waters within the park shall continue to be open to 
fishing in conformity with the laws of the State of Florida except as 
the Secretary, after consultation with appropriate officials of said 
State, designates species for which, areas and times within which, and 
methods by which fishing is prohibited, limited, or otherwise regulated 
in the interest of sound conservation to achieve the purposes for which 
the park is established: Provided, that with respect to lands donated 
by the State after the effective date of this Act, fishing shall be in 
conformance with State law.'' PL 96-287, Sec. 103(a), codified at 16 
U.S.C. Sec. 410gg-2(a).
    As a unit of the National Park System, the Park is authorized under 
16 U.S.C. Sec. Sec. 1-6 to participate in memoranda of understanding 
that document mutually agreed upon policies, procedures and 
relationships that do not involve funding.
    The FWC was created by Article IV, Sec. 9 of the Florida 
Constitution and is vested with the state's executive and regulatory 
authority with respect to freshwater aquatic life, wild animal life and 
marine life. This authority, directly derived from the Constitution, 
provides the FWC with autonomy to regulate and manage wild animal life, 
freshwater aquatic life and marine life within the State of Florida, 
which includes the areas encompassed by the Park.
    The FWC is authorized under Chapter 370.103, Florida Statutes, to 
enter into cooperative agreements with the Federal Government or 
agencies thereof for the purpose of preserving saltwater fisheries 
within and without state waters and for the purpose of protecting 
against overfishing, waste, depletion, or any abuse whatsoever. Such 
authority includes authority to enter into cooperative agreements 
whereby officers of the FWC are empowered to enforce federal statutes 
and rules pertaining to fisheries management.
    The regulatory responsibility of the State of Florida with respect 
to fishing on the original Park lands is set forth in section 1 03(a) 
of PL 96-287 (see above). The regulatory responsibility of the State of 
Florida with respect to fishing on additional lands conveyed to the 
Park after the effective date of PL 96-287 is set forth in a Board of 
Trustees of the Internal Improvement Trust Fund Dedication dated 
December 13, 1985, which contains the following special reservation: 
``All rights to fish on the waters shall be retained and not 
transferred to the United States and fishing on the waters shall be 
subject to the laws of the State of Florida.''
    NOW, THEREFORE, both parties agree as follows:
ARTICLE III--STATEMENT OF WORK
A. FWC and the Park agree to:
    Seek concurrence in meeting their management goals and strive to 
identify means, measures and other interagency actions for the mutual 
benefit of the aquatic resources within Biscayne Bay and the Park.
    Acknowledge that the FWC will play a crucial role in implementing 
and promulgating new regulations as may be deemed appropriate, as well 
as take other management actions to achieve the mutual objectives for 
the management of fisheries within the boundaries of the Park for the 
term of this MOD. However, the agencies agree to consult with each 
other on any actions that they may propose to be taken to conserve or 
protect fish populations and other aquatic resources within Park 
boundaries or to further regulate the fisheries.
    Provide for recreational and commercial fishing and opportunities 
for the angling public and other Park visitors to enjoy the natural 
aquatic environment.
    Manage fisheries within the Park and Biscayne Bay according to 
applicable Federal and State laws, and in a manner that promotes 
healthy, self-sustaining fish populations and recognizes the biological 
characteristics and reproductive potential of individual species. 
Desired future conditions for fisheries and visitor experiences within 
the Park will be established cooperatively to further guide fisheries 
management.
    Consult with each other and jointly evaluate the commercial and 
recreational harvest of fishery resources within the Park. Such 
consultation and evaluation, as set forth in the enabling legislation 
establishing the Park, should include a full review of all commercial 
and recreational fishery practices, harvest data, permitting 
requirements, techniques and other pertinent information for the 
purposes of determining to what extent mutually agreed upon fishery 
management goals are being met within the Park and to determine what 
additional management actions, if any, are necessary to achieve stated 
management goals.
    Collaborate on the review and approval of proposals for fisheries 
stock assessment, site characterization, maintenance or restoration, 
including scientifically based harvest management, species 
reestablishment, stocking, habitat protection, and habitat restoration 
or rehabilitation.
    Notify each other, as early as possible, of the release of 
information pertaining to the development of agency policies, 
management plans, statutes, rules and regulations that may affect 
fisheries and aquatic resource management within the Park boundary.
    Share scientific information, field data and observations on Park 
fishery resources and activities affecting those resources, except in 
situations where the exchange of such data would violate State or 
Federal laws or regulations (e.g. law enforcement investigations and 
confidential landings statistics). The parties will provide each other 
with copies of reports that include results of work conducted within 
the Park or Biscayne Bay.
    Jointly consider proposals for the management and control of exotic 
(non-indigenous) species, if found to occur within the Park or in 
adjacent areas, that may pose a threat to the integrity of Park 
resources. Exotic species are those that occur in a given place as a 
result of direct or indirect, deliberate or accidental actions by 
humans.
    Review and coordinate, on an annual basis, proposals for fisheries 
and aquatic resources management, research, inventory and monitoring 
within the Park and Biscayne Bay. Each party will provide prospective 
researchers with legal notice of agency-specific permitting 
requirements. Additionally, as a courtesy, and to encourage information 
sharing, the FWC and the Park will provide each other with annual 
summaries of marine and terrestrial research, inventory and monitoring 
activities conducted within and in close proximity to the Park.
    Meet at least once annually and otherwise as needed to coordinate 
management and research activities and exchange information on fish and 
aquatic resources within the Park and Biscayne Bay.
    Recognize that there may be times when the missions of the FWC and 
the Park may differ, and that while efforts will be made to the maximum 
extent possible to cooperate fully and jointly manage fishing within 
the Park as intended by Congress when the Park was established, there 
may be occasion when the two agencies choose to disagree. Such 
occasions will not be construed, as impasses and every attempt will 
made to avoid communication barriers and to not jeopardize future 
working relationships.
    Develop a comprehensive fisheries management plan (hereinafter 
referred to as the Plan) for the long-term management of fish and 
aquatic resources within the Park. The Plan will summarize existing 
information and ongoing activities, clarify agency jurisdiction, roles 
and responsibilities, identify additional opportunities for cooperative 
management, list key issues, establish management goals and objectives, 
describe desired future conditions, indicators, performance measures 
and management triggers, and develop a list of prioritized project 
statements. Specifically, with respect to developing the Plan, the two 
agencies agree as follows:
B. The FWC agrees to:
         1.  Assist the Park, and play a collaborative role in 
        coordinating with the Park and its cooperators, in the 
        development and ongoing review of the Plan.
         2.  Provide representation to a technical committee formed to 
        guide interagency fisheries management within Biscayne Bay, 
        including the Park, and participate in monthly teleconference 
        calls and meetings as may be scheduled for purposes of steering 
        fisheries management planning project.
         3.  Assign staff, including those from the Florida Marine 
        Research Institute, as deemed appropriate to assist the Park 
        and its cooperators in developing credible project statements 
        or preliminary research proposals. The emphasis of such 
        proposals will be to design and prioritize projects intended to 
        meet known fisheries data gaps or resource knowledge 
        deficiencies to facilitate scientifically based and informed 
        fisheries management decision-and rule-making.
         4.  Provide representation to and support for forming the 
        Scientific Advisory Panel for the purposes described in CA 
        below.
         5.  Provide access to and support for requests by the Park to 
        existing data and information as may be applicable to Biscayne 
        Bay fisheries and aquatic resources, jurisdictions and other 
        pertinent aspects to developing the Plan.
         6.  Review and comment upon drafts of the Plan and participate 
        in joint meetings that will be arranged to solicit public 
        opinion and comment concerning proposed fisheries management 
        actions and/or alternatives as may be described within the 
        draft Plan; and to review and comment upon any fisheries and 
        aquatic resources issues and alternatives as may be identified 
        within the Park's General Management Plan, also being developed 
        in 2001-2002.
         7.  Facilitate information exchange and otherwise provide 
        briefings to FWC Commissioners as necessary and deemed 
        appropriate by the FWC.
         8.  Facilitate information exchange and otherwise provide 
        briefings as may be deemed appropriate to the South Atlantic 
        Fishery Management Council, of which FWC's Director of the 
        Division of Marine Fisheries is a member.
         9.  Work with the Park to promulgate or revise existing State 
        and Federal rules/regulations as may be jointly identified and 
        recommended within the Plan.
        10.  As may be provided under State law and FWC policies, and 
        upon full review, comment, revision and concurrence by the FWC, 
        co-sign and endorse the Plan.
C. The Park agrees to:
    Subject to the availability of funds, provide project funding 
support to cooperators, under contractual requirements separate from 
this MOU and described within an approved study plan prepared by NPS, 
to complete the Plan.
    Secure contractors and cooperation from other fisheries experts to 
develop and/or assist the Park in developing the Plan. These 
cooperators may include, but are not limited to, research fishery 
biologists, aquatic ecologists and fisheries program managers from the 
FWC, Tennessee Valley Authority, Everglades National Park, National 
Marine Fisheries Service, Southeast Fisheries Science Center, and the 
University of Miami--Rosenstiel School of Marine and Atmospheric 
Science.
    Form a technical steering committee comprised of Park personnel as 
well as those cited inC.2 above, and arrange and coordinate monthly 
teleconference calls and periodic other meetings of this committee as 
necessary to develop the Plan.
    Arrange and coordinate a Scientific Advisory Panel to review the 
findings and recommendations contained in the 2001 report entitled 
``Site Characterization for Biscayne National Park: Assessment of 
Fisheries Resources and Habitats,'' prepared under contract for the 
Park by Dr. Jerald S. Ault, et al.
    Work with the FWC to promulgate or revise existing State and 
Federal rules/regulations as may be jointly identified and recommended 
within the Plan.
    Pursuant to the National Environmental Policy Act, arrange and 
coordinate public meetings, Federal Register Notices, and other 
requirements associated with preparing an Environmental Impact 
Statement in conjunction with the Plan.
    Under contractual arrangements separate from this MOU, finance, 
print, and distribute a reasonable and sufficient number of draft and 
final copies of the Plan to all cooperators and other entities with an 
expressed or vested interest.
    As requested by the FWC, help conduct or simply attend briefings, 
presentations or other forums concerning fisheries/wildlife management 
within Biscayne Bay, including the Park.
    Facilitate and encourage the joint publication of press releases 
and the interchange between parties of all pertinent agency policies 
and objectives, statutes, rules and regulations, and other information 
required for the wise use and perpetuation of the fisheries resources 
of the Park.
    Facilitate research permitting to state entities for activities 
needed to accomplish goals identified in the Plan.
ARTICLE IV--TERMS OF AGREEMENT
    This MOU shall become effective upon signature by all parties 
hereto, and is executed as of the date of the last of those signatures 
and shall remain in effect for a term of five (5) years unless 
rescinded as provided in Article IX. It may be reaffirmed and extended 
for an additional five years.
    This MOU in no way restricts the FWC or the Park from participating 
in similar activities with other public or private agencies, 
organizations, and individuals.
    This MOu is neither a fiscal nor a funds obligation document. Any 
endeavor involving reimbursement or contribution of funds between the 
Park and the FWC will be handled in accordance with applicable laws, 
regulations, and procedures. Such endeavors will be set forth in 
separate written agreements executed by the parties and shall be 
independently authorized by appropriate statutory authority.
ARTICLE V--KEY OFFICIALS
A. For Biscayne National Park:
        Superintendent
        Biscayne National Park
        9700 SW 328th Street
        Homestead, FL 33033 B.
B. For the Florida Fish and Wildlife Conservation Commission:
        Executive Director
        Florida Fish and Wildlife Conservation Commission
        620 South Meridian Street
        Tallahassee, FL 32399-1600
ARTICLE VI--PRIOR APPROVAL
        Not applicable
ARTICLE VII--REPORTS AND/OR OTHER DELIVERABLES
    Upon request and to the full extent permitted by applicable law, 
the parties shall share with each other final reports of actions 
involving both parties.
ARTICLE VIII--PROPERTY UTILIZATION
    Unless otherwise agreed to in writing by the parties, any property 
furnished by one party to the other shall remain the property of the 
furnishing party. Any property furnished by the Park to the FWC during 
the performance of this MOU shall be used and disposed of as set forth 
in Federal property management regulations found at 41 C.F.R. Part 102.
ARTICLE IX--MODIFICATION AND TERMINATION
    Either party may terminate this MOU by providing 60 days advance 
written notice to the other party. However, following such notice and 
before termination becomes effective, the parties will attempt to 
address and resolve the issues that led to the issuance of the notice.
    Any disputes that may arise as a result of this MOU shall be 
subject to negotiation upon written request of either party, and each 
of the parties agrees to negotiate in good faith. The parties shall use 
their best efforts to conduct such negotiations at the lowest 
organizational level before seeking to elevate a dispute. If the 
parties cannot resolve the dispute through negotiation, they may agree 
to mediation using a neutral acceptable to both parties. Subject to the 
availability of funds, each party will pay an equal share of any costs 
for mediation services as such costs are incurred. If the dispute 
cannot be resolved through mediation, it will be elevated to a third 
party acceptable to both the Park and FWC for a final decision.
    This MOU may be reviewed and/or modified at any time upon written 
agreement of the FWC and the Park.
ARTICLE X--STANDARD CLAUSES
A. Compliance With Laws
    This MOU is subject to the laws of the United States and the State 
of Florida, and all lawful rules and regulations promulgated 
thereunder, and shall be interpreted accordingly.
B. Civil Rights
    During the performance of this MOU, the parties agree to abide by 
the terms of the U.S. Department of the Interior (hereinafter referred 
to as the Department)-Civil Rights Assurance Certification, non-
discrimination and will not discriminate against any person because of 
race, color, religion, sex, or national origin. The participants will 
take affirmative action to ensure that applicants are employed without 
regard to their race, color, sexual orientation, national origin, 
disabilities, religion, age or sex.
C. Promotions
    The FWC will not publicize or otherwise circulate promotional 
material (such as advertisements, sales brochures, press releases, 
speeches, still and motion pictures, articles, manuscripts, or other 
publications), which states or implies Governmental, Departmental, 
bureau or Government employee endorsement of a product, service or 
position, which the Department represents. No release of information 
relating to this MOU may state or imply that the Government approves of 
the FWC's work product, or considers the Department's work product to 
be superior to other products or services.
D. Public Information Release
    The FWC will obtain prior approval from the Park for any public 
information releases, which refers, to the Department, any bureau, park 
unit, or employee (by name or title), or to this MOU. The specific 
text, layout, photographs, etc. of the proposed release must be 
submitted with the request for approval.
E. Liability Provision
    Each party to this agreement will indemnify, save and hold 
harmless, and defend each other against all fines, claims, damages, 
losses, judgments, and expenses arising out of, or from, any omission 
or activity of such person organization, its representatives, or 
employees. During the term of the MOD, the Park will be liable for 
property damage, injury or death caused by the wrongful or negligent 
act or omission of an employee, agent, or assign of the Park acting 
within the scope of his or her employment under circumstances in which 
the Park, if a private person, would be liable to a claimant in 
accordance with the law of the place where the act or omission 
occurred, only to the extent allowable under the Federal Tort Claims 
Act, 28 U.S.C. Sec. 2671 et seq.
ARTICLE XI--SIGNATURES
IN WITNESS HEREOF, the parties hereto have executed this agreement on 
the dates set forth below.
FOR BISCAYNE NATIONAL PARK:
Signature:
Mark Lewis Superintendent Biscayne National Park
Date:
FOR THE FLORIDA FISH AND WILDLIFE CONSERVATION COMMISSION:
Signature:
Ken Haddad
Executive Director
Florida Fish and Wildlife Conservation Commission
Date:
                                 ______
                                 
    Mr. Bishop. Mr. Crook, you have 5 minutes.

          STATEMENT OF KARL CROOK, PRESIDENT AND CEO, 
            CROOK AND CROOK, INC., FLORIDA RESIDENT

    Mr. Crook. Good morning, Mr. Chairman and members of the 
Subcommittee. My name is Karl Crook, and I am honored to be 
here to testify before you today.
    I am President and CEO of Crook and Crook Marine and 
Fishing Supplies, which was established by my parents in 1958 
in Miami, Florida. I have been in the business all my life. For 
53 years, my company knows that our business is directly tied 
to and very dependent on the fishery resources that our 
residents, our visitors, and customers enjoy today. We are also 
dependent on them having access--access is key--to our public 
waters, which is what brings me here today.
    Anglers are willing to make sacrifice for the betterment of 
the resources as long as they are confident that these 
sacrifices are based on strong science, good common sense, and 
a true desire to improve the health of the fisheries they so 
enjoy today.
    The closures being proposed in Biscayne National Park, 
specifically the 10,000-acre marine reserve, in the draft 
general management plan preferred alternative are not based on 
solid fishery management data and will significantly and 
unnecessarily close a massive area of park waters. Since we are 
still in draft form, there is still time to make the correct 
decision and listen to the public, the representatives, and the 
people that know the fisheries of South Florida.21Through 35 
years of involvement in the marine and fishing community, I am 
very familiar with the use of the surrounding waters and 
fisheries, including those in Biscayne National Park. The 
National Park Service will tell you that their proposed reserve 
zone is small, only 7 percent of the park. But when you 
consider that it is 35 percent of the most fished areas, it 
changes that dynamic. This massive closure covers some of the 
park's most popular and productive fishing areas. The 
tremendous loss of fishing opportunity is more significant than 
that 7 percent.
    The National Park Service will also tell you that they are 
proposing this closure for reasons other than fishery 
management. But once you look a little deeper and you read 
paragraph and page after page, it is clear that this is false. 
Restricting and prohibiting fishing in order to protect fish 
habitat and rebuild fish stocks is inherently fish management 
responsibility. Both the Florida Fish and Wildlife Management 
Commission and the park's Fishery Management Plan Stakeholder 
Working Group have concluded that other less restrictive 
management measures other than a marine reserve can and should 
be implemented in the park.
    By proposing a marine reserve, the National Park Service is 
casting aside professional and local expertise of fisheries 
management and severing trust with the local boating and sport-
fishing community. I contend this is the easy way out but not 
the best way.
    Where the recreational fishing is having an impact on 
reefs, there are many less restrictive management approaches, 
like anchoring areas and strong species-by-species fishing 
regulations, which can be put in place to mitigate fishing 
impact. Closing local fisheries' access will substantially 
impact hundreds of jobs and livelihoods in our local economy 
and beyond. The National Park Service should stop and 
reconsider the proposed marine reserve in the general 
management plan and instead work with the FWC and local 
stakeholders to address fishery resources challenges within the 
fisheries management plan.
    By slowing this process down and reevaluating the variety 
of other tools available, I am confident that the plan can be 
reached that addresses the resource challenges in the park 
while still allowing the public to access the public park's 
waters and fisheries.
    Please consider in your reading of the original memorandum 
of understanding between the State of Florida and the intent of 
the State when the land was given to the Park Service. Please 
also read the working group proposal of 2004. Considering all 
that is being discussed before you today, it becomes apparent 
that most of the working group proposals have been ignored. 
Both the documents are attached in my written testimony.
    I thank you very much for the opportunity to speak before 
you here today.
    Mr. Bishop. Thank you. Appreciate it.
    [The prepared statement of Mr. Crook follows:]

 Statement of Karl Crook, President and CEO, Crook and Crook Inc., DBA 
   Crook and Crook Fishing and Marine Supplies, on ``Access Denied: 
               Turning Away Visitors to National Parks''

    Good Morning, my name is Karl Crook and I am honored to have been 
asked to testify before the House Committee on Natural Resources 
Subcommittee on National Parks, Forests and Public Lands regarding the 
proposed General Management Plan for Biscayne National Park located in 
Miami-Dade County, Florida. I have been a resident of Miami Dade County 
since 1957 when my parents moved from New England to Miami. Having been 
born in 1956, I can say I have spent my entire life close to, or 
literally on, the waters of Biscayne National Park. My parents and I 
resided on a 34 foot boat at Dinner Key Marina when I was a child.
    In 1958 my parents founded Crook and Crook Fishing and Marine 
Supplies in Coconut Grove Florida. I grew up in the business and took 
over full reign of Crook and Crook upon my mother's passing in 1985. I 
have run the business as a sole proprietor up to today.
    I am currently an active member of the Dade County chapter of the 
Coastal Conservation Association and the American Sports fishing 
Association. I currently serve on the Board of Directors of the Bob 
Lewis Memorial Fishing Tournament and the University of Miami Hall of 
Fame Fishing Tournament. As a company, Crook and Crook sponsors and 
supports fishing tournaments and fishing related children charities in 
and around our community and abroad to promote and support recreational 
fishing.
    Having been in business for 53 years, my company has learned that 
our business is directly tied to, and dependent on, the fisheries 
resources that our customers enjoy. In order to serve the anglers and 
boaters that shop in our stores and our online catalog, we must first 
support creating healthy and abundant fisheries for them to pursue. We 
also depend on them having access to our public waters, which is what 
brings me here today to talk about a major threat to fishing access in 
on of south Florida's prime fishing areas--Biscayne National Park.
    Biscayne National Park is a regional treasure. It deserves the 
proper attention and controlled use to sustain and protect the natural 
beauty and resources contained within the park. Through 35 years of 
involvement with the marine and fishing community, I am very familiar 
with the uses of the surrounding waters and fisheries with respect to 
recreational fishing, tourism and to somewhat of a lesser degree, 
commercial fishing.
    Anglers are willing to make sacrifices for the betterment of the 
resource, as long as they are confident that these sacrifices are based 
on strong science and a true desire to improve the health of the 
fisheries we enjoy. However, the closures being proposed in Biscayne 
National Park--specifically the 10,522 acre marine reserve in the draft 
General Management Plan preferred alternative--are not based on solid 
fisheries management and seem to place undue blame for any and all 
problems in the park on anglers and boaters.
    The National Park Service will tell you that their proposed marine 
reserve is small--only 7 percent of the park--but I can assure you that 
the word ``small'' does not come close to describing the area at stake. 
This 16 square mile closure covers some of the park's most popular and 
productive fishing areas. The tremendous loss of fishing opportunity is 
much more significant than the simple ``7 percent of the park'' figure 
might lead one to believe.
    The National Park Service will also tell you that they are 
proposing this closure for reasons other than fisheries management, but 
once you look a little deeper, that is clearly false. The National Park 
Service claims in their draft General Management Plan that the proposed 
marine reserve is intended to ``provide snorkelers and divers with the 
opportunity to experience a healthy, natural coral reef, with larger 
and more numerous tropical reef fish and an ecologically intact reef 
system.'' However, restricting or prohibiting fishing in order to 
protect fish habitat and rebuild fish stocks is inherently fisheries 
management. Management of the park's fisheries resources is defined by 
a Memorandum of Understanding (MOU) to facilitate cooperative 
management between the National Park Service and the Florida Fish and 
Wildlife Conservation Commission (FWC). Over the last several decades, 
the FWC has established itself as a leader in state fish and wildlife 
management, particularly saltwater fisheries management, as evidenced 
by its efforts to help bring back species such as snook, redfish, and 
sailfish to their current sustainable levels. In the MOU, the FWC 
states its position that ``marine reserves (no-take areas) are overly 
restrictive and that less-restrictive management measures should be 
implemented during the duration of this MOU.'' The FWC has stated 
numerous times its believe that other, less restrictive management 
measures than a marine reserve can and should be implemented in the 
park to help rebuild the park's fisheries resources.
    This conclusion was also reached by the park's Fishery Management 
Plan Stakeholder Working group, which was formed by the park in 2004 to 
develop recommendations on goals and actions the park's Fishery 
Management Plan, and to comment and make recommendations on portions of 
BNP's General Management Plan that are pertinent to fisheries. After 
six months of meetings, the group, which consisted of commercial and 
recreational fishers, divers, scientists and representatives of 
environmental groups, produced recommendations included more 
restrictive fishing regulations for certain species, species-specific 
spawning closures and a mechanism to pay for improved enforcement and 
education of park rules and regulations. Importantly the group 
concluded that a marine reserve should only be established as measure 
of last resort and only after all else had failed.
    By proposing a marine reserve, the National Park Service is 
ignoring the recommendations of the FWC and the stakeholder working 
group. In doing so, it is casting aside professional and local 
expertise of fisheries management and severing trust with the local 
sportfishing community.
    The National Park Service claims that this area will provide a 
haven for snorkelers and divers, which will more than make up for the 
lost angler trips and associated economic impacts, but I challenge the 
National Park Service to explain how this will occur. According to Park 
Superintendent Mark Lewis, there are only 15-20 mooring buoys for boats 
to tie off on in the proposed marine reserve, where anchoring will not 
be allowed. So all of these supposed divers and snorkelers the park is 
counting on making up for lost fishing trips will only be able to 
access the reserve from these 15 or 20 spots. In actuality, not only 
will this area be closed to anglers, but the vast majority of it will 
also be inaccessible to anyone else.
    As is the case with coral reefs the world over, the reefs in 
Biscayne National Park are facing numerous threats. However, the most 
significant of these threats--ocean warming, disease and 
acidification--cannot be addressed by simply closing areas to fishing. 
Where recreational fishing is having an impact on reefs, there are 
numerous less restrictive management approaches, like no-anchoring 
areas and stronger species-by-species fishing regulations, which can be 
put in place to mitigate fishing impacts.
    The estimated impact of salt water fishing in the State of Florida 
is approximately $15 billion annually. Closing local fisheries and 
access to fisheries will substantially impact hundreds of livelihoods, 
in our local economy and beyond. Given our current economy and the 
recent difficult times we have just endured, any additional impact on 
jobs would significantly affect our residents.
    If the National Park Service's goal is to improve the park's 
fisheries and habitat, there are other, less restrictive options that 
could effectively rebuild and sustain the park's fisheries resources. 
The National Park Service should step back from the proposed marine 
reserve in the General Management Plan and instead work with the FWC 
and local stakeholders to address these issues in the Fishery 
Management Plan. By slowing this process down and reviewing the variety 
of other tools available, I am confident that a plan can be reached 
that addresses the resource challenges in the park while still allowing 
the public to access the park's waters.
    I thank you for the opportunity to speak before you this morning 
and respectfully hope the voice of the people will be heard in 
protecting livelihoods while working together to protect our beautiful 
resources.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Bishop. Mr. Curlett?

                 STATEMENT OF JOHN J. CURLETT, 
                        FLORIDA RESIDENT

    Mr. Curlett. Good morning, Mr. Chairman, Committee members, 
and my soon-to-be Congressman, Congressman Rivera. And for what 
it is worth, I am a third-generation member of the party of 
Lincoln.
    My name is John J. Curlett. My friends call me Jack. I am a 
year-round resident of South Florida, North Key Largo to be 
exact, and I have been there since 1984. I am a recreational 
angler. I fish both offshore and inshore, I have managed 
inshore and offshore sailfish tournaments, and I am here today 
on my own dime.
    We have talked about this 2005 working group. In 2005, when 
Biscayne National Park first started the process of redrafting 
the general management plan, which all parks are required to do 
every 20 years, Biscayne National Park was also required to do 
a fishery management plan that they shared the jurisdictional 
responsibilities with the Florida Fish and Wildlife Commission. 
With agreement of both, and with the assistance of the Florida 
Keys National Marine Sanctuary Advisory Council, a fishery 
management plan working group was formed. That group is 
comprised of two dozen stakeholders, along with some 
environmental interests. And people say that we have ignored 
that. Trust me, we haven't. I chaired that group.
    During the same period of time, I also served on the boards 
of Bonefish and Tarpon Trust, the Ocean Reef Rod and Gun Club, 
and the Florida Keys National Marine Sanctuary Advisory 
Council. In fact, I am the recreational angling rep to the 
Advisory Council. I still work in those same organizations 
today, along with the South Florida National Parks Trust, which 
encompasses Biscayne National Park; the Ocean Reef Conservation 
Association; and the Wildlife Foundation of Florida. I do this 
for one reason and one reason only: I want to make it a better 
place going forward. And the things I want to make better are 
the local habitat and the local fishery.
    I am here today because I witnessed firsthand the 
degradation of the local habitat and the depletion of the 
fishery. We are here today because Biscayne National Park has 
in its 2001 draft general management plan designated a small 
area, 7 percent, 10,000 acres that we heard today, as a marine 
reserve as the means to protect and reserve what is left of 
that depleted habitat and fishery.
    When Congress originally established the National Park 
System, the intention was that the parks are to be protected 
and preserved for the common benefit of all people of the 
United States, not just any one single user group. To that end, 
the national parks are held to a higher standard than other 
Federally owned lands and bodies of water and, therefore, to a 
higher degree of maintenance and management.
    The last scientific assessment of the habitats in Biscayne 
National Park was conducted by the University of Miami, the 
RSMAS school, back in 1999. No one has mentioned that, but 13 
years ago, fish stocks, 70 percent of the 35 individual fish 
stocks, 70 percent were overfished and undersized. I mean, do 
we have any reason to believe that 13 years later they have 
gotten any better? You know, today we have better fish finders, 
better bottom reading machinery, better GPS, better devices to 
find, catch, locate, fish. And on top of that, the number of 
recreational anglers has grown exponentially. I am a 
recreational angler; I know that for a fact.
    The main purpose of a marine reserve is not to 
intentionally deny access to anyone, but it is to protect the 
precious resources that are entrusted to the park's care, at 
the same time offering rewarding experiences for all visitors, 
including sightseers, boaters, snorkelers, divers, kayakers, 
glass-bottom boat operators. Visitors from all around the 
country and all over the globe visit Biscayne National Park, 
and they expect to see something that resembles a national 
park, not a terrestrial Bureau of Land Management piece of 
property or just another body of water. They want to see an 
aquatic Yellowstone or Yosemite. That is what they expect, and 
that is what they deserve. Biscayne National Park is not there 
solely for the enjoyment of local residents; it is there for 
everyone, and that is why it is called a national park.
    My experience in fishing and providing advice to the 
Florida Keys National Marine Sanctuary leaves me with the 
recommendation that a marine reserve is the right tool at this 
time. I keep hearing, oddly enough, from the Keys community, 
and they are encouraging NOAA to increase the number and the 
size of some of the similar RNAs, marine protected areas, 
within the sanctuary.
    Coincidentally, next month we are going to see the 
scientific report from a research natural area at the Dry 
Tortugas that was put together through a collaborative effort 
from the National Park Service, NOAA, Florida Fish and 
Wildlife, and the angling community--an agreement that took 
years. And we have a 5-year report coming out. And I have 
spoken to those scientists who did the before and are doing the 
present, and we are going to see all sorts of fish size growth 
and species increase. There is just so damn more of them.
    Biscayne National Park is fortunate, and unfortunate, to be 
right next to such a bustling metropolis, Miami. The great park 
is accessible and available to millions, and unfortunately that 
access takes its toll. The Park Service has the responsibility 
to mitigate for such heavy use and to protect the resource. And 
if we ever want to see it recover from the decades of damage it 
has seen, they have to do that.
    All told, I am supportive of a marine reserve in Biscayne 
National Park as a means to protect this unique resource that 
exists in my backyard and your backyard. I want my 
grandchildren and their children and your grandchildren to be 
able to enjoy this incredible resource.
    I am Jack Curlett, and I am a recreational angler. You 
know, for years I have had people come to the Keys and go out 
on the water, have a great time, and say, ``Wow, I can't 
believe it.'' I say, you know, ``You should have been here 25, 
30 years ago. You wouldn't believe what it was like then.'' You 
know, I have people say that to me whenever I say it as well, 
``You should have been here.'' Wouldn't it be great if 25 years 
from now----
    Mr. Bishop. Mr. Curlett, I need you to finish in a 
sentence.
    Mr. Curlett.--one of our kids says, ``You are so lucky that 
my parents did something 25 years back''?
    Thank you for your time.
    Mr. Bishop. Thank you.
    [The prepared statement of Mr. Curlett follows:]

                    Statement of John J. Curlett on 
       ``Access Denied: Turning Away Visitors to National Parks''

    My name is John J. Curlett. My family, friends, and creditors call 
me Jack. I am presently, and have been since 1984, a resident of South 
Florida, North Key Largo exactly. I fish both offshore as well as 
inshore. Literally, at my doorstep, I have the ability to fish in 
either the Florida Keys National Marine Sanctuary, Everglades National 
Park, John Pennekamp Coral Reef State Park or, why we are all here 
today, Biscayne National Park. I am a recreational angler.
    In 2005 when Biscayne National Park first started the process of 
redrafting their General Management Plan, which all national parks are 
required to do every twenty years, Biscayne National Park was also 
required to draft a Fishery Management Plan, as they shared 
jurisdictional responsibility of the park's waters with the Florida 
Fish and Wildlife Conservation Commission. With the agreement of both, 
a Fishery Management Plan Working Group was formed with the assistance 
of the Florida Keys National Marine Sanctuary and Atmospheric 
Association and that group was comprised of two dozen local 
stakeholders and several environmental representatives. I chaired that 
working group from January through September of 2005. During this same 
period of time I also served on the boards of Bonefish and Tarpon 
Trust, the Ocean Reef Rod and Club and the Florida Keys National Marine 
Sanctuary Advisory Council. I still work with those same organizations 
today, along with the South Florida National Parks Trust, the Ocean 
Reef Conservation Association and the Wildlife Foundation of Florida. I 
do this for one reason. I want to help make things better, those things 
being the local fishery, water and habitat. I am here today as I have 
witnessed first hand the degradation of our local habitat and the 
depletion of our fishery.
    We are here today because Biscayne National Park has, in its 2011 
draft General Management Plan, designated a small portion, seven 
percent, of the park as a marine reserve.
    When Congress originally established the National Park System the 
intention was that it was to be preserved and protected for the common 
benefit of all of the people of the United States, not just for any 
single user group. To that end, national parks are held to a greater 
standard than some other parcel of land or body of water and therefore 
deserve a higher degree of maintenance and management. The last 
scientific assessment of habitats and fish population in Biscayne 
National Park was conducted by the University of Miami in 1999. Even 
then, 13 years ago, it was found that 77% of the 35 individual fish 
stocks that could be analyzed were overfished. Have we any reason to 
believe 13 years later they have improved. Today we have better fish 
finders and bottom reading machinery and better global positing devices 
to catch fish. On top of that, the number of recreational anglers has 
dramatically increased as well. I know, I am a recreational angler.
    As I mentioned earlier, I serve on the Florida Keys National Marine 
Sanctuary Advisory Council. The Florida Keys National Marine Sanctuary 
and Protection Act was signed into law in 1990. Since that time 
numerous areas in the Sanctuary have been set aside as Sanctuary 
Preservation Areas(SPAs) and Ecological Preserves. All of these, just 
like the proposed Marine Protected Areas for Biscayne National Park are 
open to everyone but uses are restrictive to non consumptive uses. At 
first the local Monroe County residents were up in arms that they were 
being denied fishing in this resource. I know. I was one of them. I am 
a recreational fisherman. Over the past decade, like many other local 
anglers, I have seen fish populations increase in and around these 
SPAs, and as fish tend to swim and know no defined boundaries, they end 
up populating nearby and adjacent reefs and habitat. Fishing around 
these areas has never been better.
    The main purpose of a marine reserve is not to intentionally deny 
access to anyone but to protect the precious resources entrusted to the 
park's care and at the same time offering rewarding experiences for all 
visitors, including boaters, sightseers, anglers, snorkelers, divers, 
kayakers, birders, and glass-bottom boat tour passengers. Visitors from 
all around the country, and all over the globe, visit Biscayne National 
Park and they expect to see something that resembles a national park, 
not a terrestrial BLM piece of property or just another body of open 
water. They want to see an aquatic Yellowstone, or a Yosemite. That is 
what they expect and that is what they deserve. Biscayne National Park 
is not there solely for the enjoyment of local residents. It is there 
for everyone. That is why it is called a national park. That 
responsibility is ours, yours and mine.
    I stand here as one of the few if not the only resident of Florida 
on this panel. I am an avid and regular angler of these waters. Anyone 
who truly knows the waters of Biscayne National Park knows that the 
reef is in serious danger of collapse. No conscientious angler would 
agree that fishing in this area shouldn't be significantly curtailed. 
Strong tools need to be used in this park if it is ever to recover the 
reef coverage or fish numbers, species, and sizes that used to exist 
here. Bag limits and catch sizes just won't matter in this area, as the 
fish simply aren't there. A marine reserve is the most logical tool to 
apply in this area. Indeed, during my chairmanship on the Fishery 
Management Plan Working Group, we came very close to recommending a 
marine reserve of approximately 9000 acres. This recommendation was 
generated by the local stakeholders who sat on that committee, not a 
bunch of extreme environmentalists who've never been to the park or had 
a rod and reel in their hand.
    My experience fishing in and providing advice to the Florida Keys 
National Marine Sanctuary leaves me with the recommendation that a 
marine reserve is the right tool to use here. In fact, I keep hearing 
from the community that they are encouraging NOAA to increase the 
number and the size of these sites throughout the sanctuary.
    These same results, I understand, are coming out of the marine 
reserve, or Research Natural Area at Dry Tortugas National Park. 
Indeed, through a collaborative process with the National Park Service, 
NOAA, the Florida Fish and Wildlife Conservation Commission, and the 
angling community, we came to agreement over five years ago, after many 
years of negotiation, that we needed to close an area in and around the 
reefs in Dry Tortugas. The initial results are showing that fish sizes 
are larger, there are more of them, and there is a wider variety of 
species, too.
    Biscayne National Park is in both the fortunate and unfortunate 
situation of being right next to the bustling metropolis of Miami. This 
great park is available and accessible to millions of people. That 
access, though takes its toll. The park service has a responsibility to 
mitigate for such heavy use to protect this resource if we ever want to 
see it recover from the decades of damage that it has seen.
    All told, I am supportive of a marine reserve to protect the 
incredibly unique reef tract that exists in my backyard. I want my 
grandkids kids and your grandkids to be able to see and enjoy this 
incredible resource when they visit Miami.
                                 ______
                                 
    Mr. Bishop. Now, questions for this panel. Mr. Jones, do 
you want to start us off?
    Mr. Jones. Mr. Chairman, that is very kind. Thank you.
    Mr. Chairman, I want Mr. Judge or Mr. Couch to respond. 
When I look at how this problem developed, it really angers me 
for this reason: In 2005, the National Park Service initiated 
negotiation rulemaking process with 26 groups, including the 
citizens of Dare County. The negotiation rulemaking broke down 
when environmental groups in 2006, Mr. Chairman and Ranking 
Member, walked away from the discussions. You had the Federal 
Government, you had the people that pay the taxes coming 
together to reach a compromise, and 3 of the 26 walked away--
the Southern Environmental Law Center, Audubon Society, and 
Defenders of Wildlife.
    Would you, Mr. Judge, or you, Mr. Couch, whichever one, 
comment on what you almost had but you lost it?
    Mr. Judge. Thank you, Congressman Jones, and I would be 
glad to.
    After almost 15 months of very intense 2- and 3-day 
continuous meetings monthly or every other month, 20, 21 
different entities representing access, from ORV to local 
governments, which I represented, just that people have access 
to the beaches, to pedestrian, to birdwatchers--after all this 
time, in February of 2009, which turned out to be the last 
day--it was not scheduled to be the last day, but all of a 
sudden, the superintendent ruled it to be the last day--we put 
a plan on the floor.
    That plan had 19 votes in favor, 5 votes opposed. That plan 
represented a huge shift from where the beach access caucuses 
began all the way back in October of 2007 in their initial 
positions. That plan had 19 votes for it, 5 votes against it.
    The outfit that was hired by the Department of the Interior 
to run the negotiated rulemaking process instituted a rule that 
the only decision that would go forward would have to be 
unanimous. So they ruled that plan as a--they ruled that vote 
as a loss, that the vote failed.
    Mr. Jones. Mr. Couch, will you share, with the minute and a 
half that is left, the--isn't Dare County, out of 100 counties, 
has the second-highest unemployment rate in the State of North 
Carolina, somewhere around 19 percent?
    Mr. Couch. Yes, sir, that is correct.
    Obviously, Hatteras Island, Dare County, we are tourist-
based, and our numbers fluctuate. But since this beach access 
fiasco, as indicated in my business--I used to do it with 10 
full-time employees; now I am down to 6. I used to work 6 days 
a week; now I am working 10 days a week just to make up for 
those losses.
    And this has just handcuffed it, as Mr. Judge has said, it 
handcuffs our--we have no predictability other than what will 
come in bird closures, thus stifling our economy.
    Mr. Jones. Mr. Chairman, in closing, I would like to say 
that a gentleman who served in World War II that lives in Dare 
County, that stormed the beaches of Omaha and later became 
injured, who has enjoyed going out to fish down in Hatteras and 
that area, that he has to have somebody carry him, he now 
cannot get on the beach to fish because of the vehicle 
situation, but yet he was willing to give his life for this 
country. That is why this is an important hearing. And we must 
find balance before it is too late. And the people of this 
country have a right to those accesses.
    So I thank you for letting me sit on the dais today.
    Mr. Bishop. Thank you. Appreciate that. There may be other 
rounds of questions if you want to stay.
    Mr. Grijalva, do you have questions?
    Mr. Grijalva. Yes. Thank you, Mr. Chairman.
    Dr. Frost, in reference to 4094, if you could quickly, if 
you have figures, that would be very useful. What was the 
economic benefit of the park to the local area that we are 
referencing today?
    Mr. Frost. You want dollar figures?
    Mr. Grijalva. Yeah.
    Mr. Frost. I don't know if I have those numbers off the top 
of my head. And I apologize. So I will have to get those 
numbers for you.
    Mr. Grijalva. We would appreciate that.
    Mr. Grijalva. What is the plan for the ORV permit money?
    Mr. Frost. The plan would cover the costs of implementing 
the permit basically. It doesn't do anything else. So in terms 
of, you know, the staff time that would be required to issue 
the permits, help on law enforcement, help on resource 
protection, it wouldn't go into any other operational sort of 
thing for the park. It would just be used to cover the 
operational expenses of implementing the permit system.
    Mr. Grijalva. Thank you. Commissioner Judge, in your 
testimony, you claim that the park's new ORV policy has 
destroyed the economies of the community by limiting or cutting 
the access to the park.
    Let me get some points of clarification if I may, 
Commissioner. In the 2009 Dare County tax report, which was 
issued following the impact of the consent decree, stated that 
the community had fared well and experiences a revenue 
reduction of 0.53. Is that figure correct?
    Mr. Judge. That is macroeconomics for the county of Dare. 
The county of Dare reaches from the Dare County Currituck line 
to the Hatteras inlet, approximately 93 or 94 miles. We have 
thousands of homes that stretch from that area.
    Mr. Grijalva. So overall it is 0.53?
    Mr. Judge. Yes, sir. But that is the entire county. It 
doesn't talk about the villages of Buxton and Frisco and Avon 
specifically.
    Mr. Grijalva. Thank you. And that same report stated that 
expected growth rate would be 6 to 8 percent overall in the 
county, correct?
    Mr. Judge. Yes, sir.
    Mr. Grijalva. Occupancy of campgrounds, cottages, motels, 
as measured and reported by Dare County on its tax report, 
appears to have increased since the emergency ORV restrictions 
were put in place.
    Mr. Judge. The economy of Dare County, the commerce of 
tourism has enjoyed growth over the years because of the family 
destination that we are. But again, you are looking at a 
countywide figure. That doesn't break out and talk about the 
impact on the businesses in the villages of Hatteras Island 
which is inside the Cape Hatteras National Seashore 
Recreational Area.
    Mr. Grijalva. The consent decree agreed to by the lawyers 
in your community and particularly negotiated by your county 
attorney, your group signed the paperwork that ended the first 
lawsuit; that is correct, right?
    Mr. Judge. Part of that statement, I would like to 
challenge, and that is that our county attorney--I don't think 
any of y'all, if you knew the facts, would agree that he in any 
way handled negotiations. In fact, it was after he came home 
after the first round of negotiations in Raleigh with the 
special interest groups and the U.S. attorney, that we released 
a press release that we were pretty much cut out of the 
process. Shining the light of day on the process grew their 
anger, and he was told what the deal was going to be. And, yes, 
I along with my six other colleagues, we did sign a consent 
decree; as my colleague Alan Burr said, we chose to be shot in 
our foot and not in our head.
    Mr. Grijalva. And Commissioner, one of the things that I 
understand is a significant threat to the beach nesting 
wildlife at the seashore, especially on Harris Island, are the 
feral cat colonies. And just for my own edification, I know 
that the Commissioner and Dare County is concerned about that, 
concerned about the wildlife. What is being done to address 
that very dangerous situation with feral cats and the wildlife?
    Mr. Judge. I don't know that I can speak to how--the 
National Park Service shoots animals in the National Park 
Service. I really can't address in the national park--I am not 
an expert on that, other than we know that they kill a bunch of 
them.
    Mr. Bishop. OK. Well, there may be some other rounds here, 
if you want to follow up on that question at another time. I am 
going to have to leave in a few minutes. And the good 
Congressman from Florida will take over from here. So let me 
ask a couple of questions just before I go. Usually I try to go 
at the end. And I apologize for that.
    Commissioner Wright, if I could ask you to very briefly 
tell me about the MOU that Florida Fish and Wildlife has with 
the Park Service and why it is relevant in this situation.
    Mr. Wright. Thank you, Mr. Chairman. The MOU is up, in 
fact, to expire in this coming September. But that memorandum 
of understanding is between the Park Service and the Fish and 
Wildlife Commission, entered into and, quite frankly, we were 
concerned--my predecessors on the Commission were concerned 
about the possibility of no-access areas being created. And 
there is specific language in the MOU that provides that no-
access areas would not be used for purposes of fisheries 
management.
    Mr. Bishop. All right.
    Mr. Wright. And we are the agency that does fisheries.
    Mr. Bishop. I appreciate that. And I will ask Mr. Rivera to 
follow up on that concept with me at some time.
    Mr. Judge, as I understand it, there was a lawsuit that 
dealt with this. Was that lawsuit ever adjudicated?
    Mr. Judge. No. No, sir.
    Mr. Bishop. So you did a consent? You cut a deal in some 
way?
    Mr. Judge. The U.S. attorney and Southern Environmental Law 
Center, representing their clients, cut the deal. We were 
defended interveners.
    Mr. Bishop. So let me see if I get this right. And this is 
not necessarily a question, Mr. Frost. It is a frustration I 
have with the entire Department of the Interior that keeps 
touting their wanting to do common sense and this doesn't seem 
like common sense.
    The economic study you did that was purported in here took 
care of the entire county, but did not deal with the areas that 
are most impacted by this piece of property. You created a 
buffer zone that is far greater than any other buffer zones we 
have seen for certain purposes. We have--the Department of the 
Interior ignored local concerns and local input. There was a 
lawsuit that was never adjudicated by a court. Instead, you cut 
a deal before it ever happened, which even if that deal was 
appropriated, smells once again of political decisions being 
made outside of court to try and do some kind of political 
agenda.
    Good grief, this is a recreation area. And the only thing 
you seem to be prohibiting is recreation. It does not make 
sense. And I can understand why the people of North Carolina 
are so upset about that. When you have specific requirements in 
there that simply tell people--what is the verbiage you have 
there? Shoreline open to restricted pedestrian access. Leave no 
footprints behind. Walk in water where footprints wash away. No 
vehicles. No pets. No kites.
    No wonder when States in the West want to take back Federal 
land, they don't want Park Service land because it doesn't 
produce any revenue, because the Park Service has an attitude 
that makes it unfriendly and unpopular and disinviting for 
people to actually welcome it and to go there. This is a 
recreation area. It should be a primary concern.
    So what the Park Service has done--and this one is totally 
inconsistent with reality. It defies common sense, and it is 
simply inappropriate. And I thank Representative Jones for 
introducing this legislation, because somehow someone has got 
to bring reality back to the Department of the Interior, which 
seems to be devoid of that very concept. And fortunately, I 
hope we don't do the same mistake in Florida, which is why this 
oversight hearing is here.
    Obviously what the local people are telling you is you are 
marching along a path that is going to lead to another conflict 
again, and hopefully you will make decisions ahead of that time 
that don't send you down to a wrong decision. Get local input 
in there. I have always said that I really trust the people on 
the ground back in the State because they understand the 
situation. It seems as soon as you go up the food chain here, 
all of a sudden arbitrary decisions are made often. And once 
again, a lot of those decisions are made by consent decrees 
where a case is not being adjudicated, simply the Department is 
a making a deal outside of court and then saying, well that is 
what we have to do because that is the way the process works.
    I am sorry. This looks wrong. It smells wrong. It is bad. 
And once again, I realize you are not the decision maker there. 
But Mr. Frost, when you go back to your colleagues, tell them 
once again they have screwed up. Fix it. And I yield back.
    Mr. Rivera, if you will take my place. And I think it is 
fair to say, Mr. Rivera, you have not had a chance to ask any 
questions. Please feel free to take that opportunity and then 
we will give Mr. Grijalva a second round here.
    Mr. Rivera. [Presiding.] Thank you, Mr. Chairman. I am 
actually going to yield to Representative Jones my time so we 
can continue on the Cape Hatteras issue and then Mr. Grijalva 
as well. Representative Jones, you are recognized.
    Mr. Jones. Mr. Chairman, thank you very much.
    And I want to say that if you knew Dare County well, you 
would understand that they are two different worlds. The upper 
part of Dare County is where you have Kill Devil Hills, you 
have the areas where the Wright brothers took off for the first 
flight. That is where the people are going. They go down to 
where these people live because that is where they can fish. It 
is two different worlds. It is two different economies, quite 
frankly.
    And I want Mr. Judge or Mr. Couch to speak to the fact that 
the two different worlds--and they are so different, it is 
almost unbelievable; the same wonderful people, but most of the 
people that have moved from the north and the west to Dare 
County end up living in the northern part of the county--excuse 
me, Mr. Chairman--but the southern part of the county is where 
these people are coming from, and it is their economy that is 
collapsing, thanks to the Park Service who, in 2005 said, We 
want to work with you. We want to see this work. But all of a 
sudden when the lawsuits came, they just changed their whole 
attitude. And I agree with the Chairman's words. So if you 
don't mind, if Mr. Couch or Mr. Judge could speak on the two 
different worlds.
    Mr. Couch. Thank you, Congressman Jones. There are two 
important things I would like to go ahead and mention. Tomorrow 
there is a fishing tournament. It is an individual surf fishing 
tournament, sponsored by Four Plus out of Richmond, Virginia. 
It takes in 600 individual contestants for a 24-hour 
tournament, and it limits it to 600 people. Last year, it 
dipped to 550. As of yesterday, it has a total enrollment of 
373. We have a fishing tournament in the fall which is done by 
Capital City out of Richmond, Virginia. It will most likely be 
the same thing.
    When the Park Service closes down Cape Point, which is 
right at my backdoor, last year it closed before April 1 and 
stayed closed all the way until August. Those people in our 
businesses that are around that entrance into that ramp, we 
suffered greatly. Those people who want to go to Cape Point but 
can't because a threatened species has 1,000 meters worth of 
protection all the way around it, that business goes elsewhere, 
and we are denied that until August. And these things can be 
easily fixed if the Park Service would listen. Warren?
    Mr. Judge. Thank you, Congressman. And that is a very good 
question, a very good point. Hatteras Island is the vacation 
land for not only the people that stay on Hatteras Island but 
the people that stay north of Oregon and for residents of Dare 
County. There are two extremely valuable areas in the Cape 
Hatteras National Seashore. One is the Oregon inlet spit, which 
we have no more access there, and that is one of the greatest 
places to go on the backside of that spit and take your little 
children, your families. People would cook out. They would 
spend a day picnicking. And the kids could wade in tidal water 
that was calm and safe for them. Parents could have a great 
family experience. The other place is South Beach, just 
adjacent to the geographical area that John was talking about, 
just to the west of Cape Point, again, one of the greatest 
beaches for people to go to enjoy safer waters from the ocean's 
edge, and it is where we go. It is where the resident goes as 
well as the tourist.
    And Congressman, a very important point here. We talk about 
all these miles, and the special interest groups are going to 
argue one point and we are going to have another point. The 
Park Service has even another point. The Park Service developed 
this beach access by vehicle. There are 11 accesses from Oregon 
inlet to Hatteras inlet. There are 805 parking spaces. Unless 
you can afford to own and rent an ocean-front house or own it, 
you have to drive to the beach. That is how it was developed. 
There are 805 parking spaces. And you have to be an athlete to 
park in one of those parking spaces and make it to the beach. 
We eliminate children. We eliminate the elderly. We eliminate 
the handicapped under this rule.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Rivera. Representative Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. Mr. Couch, in your 
testimony--and you are trying to make the case for the 
economics of small business in your testimony. Your testimony 
puts almost the entire blame on reduced access to the small 
part of the area as the cause for that business drop. The park, 
as I understand it, has consistently seen an increase in 
visitation over the last 5 years. Occupancy rates have also 
increased, climbing to record levels in 2007, 2008, 2009, 2010.
    Dare County has also, if I may--and I want to know what 
that impact has had on small businesses--has also made choices 
to impact your small business and others, including allowing 
several box stores like Home Depot to be built, increasing the 
footprint of Wal-Mart. And you know the history of Wal-Mart is 
as they grow, and they are able to undercut, and the price is 
lower and the choice is greater, businesses that used to do the 
same thing that is now in that big box began to disappear in 
local and smaller communities.
    There have also been zoning regulations that have been 
changed. This recession has been the worst in 80 years. 
Hurricane Irene hit the island. People have cut back on 
personal spending. So how would you categorize all those 
economic impacts relative to the influence that the park is 
having in terms of the access issue?
    Mr. Couch. Thank you for your question. Home Depot, Kmart, 
Wal-Mart the new Lowe's is about 89 miles from my door. I 
certainly can't go there and get back in time for lunch. It is 
an all-day trip. The figures that are typically given in 
response to our concerns are for the more populated areas of 
Kill Devil Hills, Kitty Hawk, and certainly not Hatteras 
Island, and also includes Ocracoke Island, one of the poorest 
counties within the national seashore. There are eight villages 
that live within the seashore. People have to come in to us. 
And we are dictated by the Park Service with this ORV rule of 
when and where and how business is going to be conducted. We 
can't go ahead and expect that. When you come on to Hatteras 
Island, you come across Bonner Bridge and you go down through 
Pea Island Wildlife Refuge, which is 13 miles, and then there 
is another additional six to seven miles before you can even go 
ahead and access the beach by ORVs.
    And ORVs is getting a bad name. This is just motorized 
access. It enables my children, my grandchildren, and my 
elderly relatives, so I can take them to the beach and we can 
sit there all day long.
    Mr. Grijalva. That part was part of your initial testimony 
and I appreciate that.
    Mr. Couch. Thank you.
    Mr. Grijalva. Just one more question if I may, Mr. Couch. 
Your organization was an intervener on behalf of the park 
during the 2008 lawsuit. Your group signed off on the consent 
decree; correct or incorrect?
    Mr. Couch. That is correct.
    Mr. Grijalva. And now the plan is not exactly what you 
want. So your group is now countersuing for that open access?
    Mr. Couch. That is correct.
    Mr. Grijalva. And as the process goes forward, you know, 
the population of Dare County is about 35,000 people, if I am 
not mistaken. That was the commissioner's testimony. In the 
summer it goes up to 100,000. Any public safety issues that you 
see on those beaches, now that you are commenting on that for 
the long haul, when people and vehicles collide?
    Mr. Couch. No. I don't characterize it that way. It is not 
certainly a safety issue. I would certainly like to go ahead 
and see what type of statistics are being used for somehow some 
sort of safety measures, when there is to my knowledge no data 
to support that. But we have a situation down there where these 
closures--and I kind of get back to this--when they put 1,000 
meters around an area for a bird and then it closes off areas 
that are otherwise open but you can't get to.
    And these numbers of the economy, they don't sustain those 
for Cape Hatteras, Hatteras Island and Ocracoke Island.
    Mr. Grijalva. I appreciate it, sir. Thank you, Mr. 
Chairman.
    Mr. Bishop. Thank you very much. I am going to yield a 
minute or so of my time to Representative Jones.
    Mr. Jones. Mr. Chairman, thank you. And this will be my 
close in a way. You have been very gracious.
    I want to ask about the zoning of box stores in the county. 
And that would go to Mr. Judge. And then I would like if there 
would be some response to what the Ranking Member was saying 
about the safety issue.
    Mr. Judge. Thank you, Congressman Jones. Dare County, the 
zoning in the stores that the Ranking Member asked about are--
although they are in Dare County, they are not in Dare County's 
governmental jurisdiction. They are in the towns of Kill Devil 
Hills and Kitty Hawk. Years ago, Dare County zoned--we put a 
limit size on big box stores. I believe the most you can have 
is 20,000 square feet. We did it in conjunction with our land 
use plan. Our land use plan specifically speaks to the 
nurturing and the reinforcement and the continued development 
of our mom-and-pop businesses.
    The only thing you can build bigger than 20,000 square feet 
in unincorporated Dare County would be a hotel or a motel, if 
it was in a properly zoned--if it was in a correctly zoned part 
of the county.
    As far as public safety, I am unaware of any public safety 
issues. The Park Service has an outstanding force of rangers. 
They have a great relationship with the Dare County Sheriff's 
Department. We have seven volunteer fire departments on 
Hatteras Island that all participate in ocean rescue and are 
trained in that way. We have an independent village EMS service 
that is an adjunct to the Dare County EMS Service. Here again, 
they are very well trained on water rescue and those types of 
things.
    So I am unaware of--that is not to say that the ranger 
won't arrest somebody tomorrow for a traffic violation on the 
beach. It is not to say that there might be an injury on the 
beach or whatnot. We are certainly not free of any sort of 
problems. But I know of no public safety issues that should be 
of concern should H.R. 4094 be adopted.
    Mr. Jones. Mr. Chairman, in closing, again I thank you and 
the Ranking Member. If you really would go back and just see, 
when they try to work a plan out and the stakeholders came 
together with the exception of four or five, and when you look 
at the fact that, again, these are two different worlds, I 
cannot stress that enough. You go from the growing area of Dare 
County where people are moving in with money, buying the big 
homes and everything. And you go down over the bridge and you 
go down to Rodanthe, Buxton, and Hatteras and those areas, it 
is wonderful but it is two different worlds. And their economy 
is strictly and only succeeds because people come to that part 
of Dare County. And if they stop coming and they half the 
people that are coming now, then it won't be but so long before 
these small businesses that are independently owned, they will 
go out of business.
    That is why we need to find common sense with the 
government and the people who pay the taxes of those of us who 
work for the government. And we need to understand, we are 
public servants. Public servants need to find compromise. 
Extremism will ruin this Nation. This is a prime example. This 
is what is going to happen to the southern part of Dare County 
if we don't help them out. Thank you for this time.
    Mr. Rivera. Thank you very much. I am actually going to 
yield back the remainder of my time on this round. And we still 
have some questions on Cape Hatteras so we will go to Mr. 
Grijalva.
    Mr. Grijalva. Dr. Frost, Biscayne, a couple of oversight 
questions. One question: Through the testimony we have heard 
relative to that, the impression one gets is that this process 
has been in the dark, that there has been no transparency, that 
people don't know that they had limited to no input, that the 
public comment period was limited. How many public meetings 
have you had?
    Mr. Frost. I think there were three public meetings over 
the course of 3 or 4 years.
    Mr. Grijalva. And how many comments have you received?
    Mr. Frost. I think somewhere around 18,000.
    Mr. Grijalva. And how would you categorize those comments?
    Mr. Frost. Most of those comments are in support of the 
marine reserve or establishing a marine reserve.
    Mr. Grijalva. And Mr. Curlett, thank you for your 
testimony. Are people in the angling community supportive of 
the reserve? And if you could briefly--because I have other 
follow-up questions on this--if you could briefly tell me why.
    Mr. Curlett. Well as I started to say earlier, we have 
several reserves in the Keys. And we have had them there for--
starting 20 years ago in 1990. I fought them 20 years ago. I 
was dead set against them. I was on the Sanctuary Advisory 
Council to be the other side. And after serving on the Council 
over the past 8 years, I see them work. I have seen them work 
in the Dry Tortugas, and I have seen them work right in front 
of my house off of Carysfort Reef. Biscayne National Park is an 
intensive care patient. You don't give it two aspirins and send 
it home. It needs something a little bit more dramatic, 
unfortunately.
    Mr. Grijalva. And the reserve is----
    Mr. Curlett. The reserve is it.
    Mr. Grijalva. Thank you. Mr. Wright--and thank you for your 
testimony as well.
    Counsel, the MOU that we have been referencing was signed 
in 2002 and again in 2007. You were not a member of the 
Commission until August of that year; is that correct?
    Mr. Wright. That is correct, sir.
    Mr. Grijalva. So let me ask, the Florida Fish and Wildlife 
Commission, what science does it use to make their decisions to 
continue sustainability of their fisheries and to make those 
vital decisions that you, under the MOU, have that prerogative?
    Mr. Wright. I am glad you asked that question. Our research 
institute is world famous. We regulate our fisheries not by 
intuition or guesswork, or certainly not by referendum, but we 
regulate by science. We have scientists that are renowned for 
the fisheries management that we do. We have brought back red 
fish from the brink of extinction. We manage down to the point 
of scientifically determining the spawning potential ratio of 
surviving fish after a sustainable catch. And that is the kind 
of science that we think ought to be at least looked at in this 
instance before we go to an absolute closure.
    Mr. Grijalva. Thank you. And let me in reference to the 
science--and I think that is very important. And if more 
decisions were made on science, in fact, we would be a lot 
better off, all of us collectively.
    The Port of Miami is pursuing a big expansion to attract 
those big freighters that are going to be expected to arrive 
from Asia when the Panama Canal gets widened. That is supposed 
to be completed in 2014. There is opposition from the 
environmentalists and anglers over the impact on species and 
the coral reef. Yet your organization, the Commission, has 
voiced support for allowing there to be 600 no fishing days 
with this new work. You see that as a valid action; yet 
creating the marine reserve zone to protect activity such as 
scuba diving is not valid? How do you reconcile those two?
    Mr. Wright. Well, because there is a scientific basis for 
the reconciliation. There has been a comparison to the Dry 
Tortugas closure to the one proposed in Biscayne National Park. 
The Dry Tortugas, by comparison that area is, number one, 
extremely remote and it encompasses 400 square nautical miles. 
The area that is being proposed for closure is literally within 
the outskirts of Miami and, by comparison, constitutes only 16 
square miles. The ability to manage 400 square miles from a 
closure as opposed to 16 is overwhelming.
    Mr. Grijalva. I appreciate that, counsel. And with that, 
Mr. Chairman, thank you for your courtesy. And I yield back.
    Mr. Rivera. Thank you. Thank you so very much.
    First, let me ask for unanimous consent to include into the 
record statements submitted by Tom Davidson of the Bonefish 
Tarp and Trust and Bruce Popham of Marathon Boat Yard Marine 
Center who support the Service's proposal.
    And in opposition, I would like to submit statements from 
Carl Liederman of Captain Harry's Fishing Supply Company; 
Jefferson Angers, President of the Center for Coastal 
Conservation; Joe Neber of Contender Boats Incorporated; Don 
Waters, a Florida State spearfishing champion with over 40 
years of experience in diving and fishing in the park; Karl 
Wickstrom, the founder of Florida Sportsmen; and Rob Southwick, 
President of Southwick Associates, which conducted a 
socioeconomic impact study of the Service's proposal.
    I also have a letter to Secretary Salazar from both of 
Florida's Senators, Senator Bill Nelson and Senator Marco 
Rubio, that was sent yesterday in opposition to the Park 
Service's proposal. So, without objection, I would like to ask 
that these be included in the record. Seeing no objection.
    Now to my questions. Biscayne National Park is the largest 
marine park in the National Park System. My constituents visit 
the park for all the recreational activities available there. A 
large component of these activities is recreational fishing, 
which supports and sustains angling and angling-related jobs in 
South Florida. A healthy fishery is vital to these businesses, 
and we should work on conserving these natural resources and 
certainly not locking them up.
    Just to offer a few statistics, Florida's approximately 2 
million saltwater anglers annually contribute approximately $3 
billion in retail sales, 50,000 jobs, and over $345 million in 
State and local tax revenues. Similarly, the boating industry 
supplies over 200,000 jobs and over $16 billion in economic 
impact statewide each year, with a substantial portion of that 
economic output occurring in South Florida.
    Now in their letter, Senators Nelson and Rubio say, quote, 
the measures proposed in the Park Service plan represent the 
most extreme tools available for making fishery management 
modifications to Biscayne National Park, ignoring alternative 
ways to achieve the desired resource improvements without 
sacrificing the public's ability to access and enjoy the park, 
unquote.
    The Biscayne National Park Fishery Management Plan Working 
Group--and Mr. Curlett, you are the chairman of the working 
group--in their capacity to consult on the fisheries portion of 
the park's general management plan, did not include 
implementing marine reserves or no-take zones within the park 
in their final recommendations. However, the Park Service, in 
their preferred alternative plan, plan four, does include a 
marine reserve.
    So first, Mr. Frost, the Service went against the 
recommendation of the working group?
    Mr. Frost. Well, the working group was dealing primarily 
with fishery issues and a fishery management plan. The GMP is a 
much broader document and it looks at all aspects of how we 
manage a national park. And as part of the MOU, we mentioned in 
the MOU that while we weren't going to look at marine reserves 
in the fisheries management plan, we reserved the right to look 
at a marine reserve as part of the larger GMP process. So if 
you read the GMP in its entirety, it is really not just about 
fishing. It is about visitor use and visitor experience.
    So Biscayne was established to provide a variety of visitor 
experiences. People like to come there to snorkel. They like to 
come to scuba dive. They come to watch wildlife. They come just 
to hang out and be quiet. And then they come to fish. So there 
is a variety of users.
    So the GMP is trying to make those visitor experiences to 
everyone available. So what the marine reserve is going to do 
is, while it will restrict fishing in that 7 percent of the 
park, it is not going to restrict anything else. Boats are 
still going to be able to go into that area. They are going to 
be able to tie up to moorings. They are going to be able to 
dive. They are going to be able to snorkel. They are going to 
be able to swim in the water. So it is just that--we are trying 
to--but at the same time, by doing that, we are going to allow 
that fisheries to recoup. And what that is going to provide is, 
it is going to provide sort of a respite from the pressure of 
the fishing. And those fish along the coral reef, they are 
going to grow and they are going to be bigger, and that is what 
people want to see. They want to come and see big fish. And as 
a result, as that happens over time, those fish are going to 
spill out and it is going to be available for fisheries 
options, too.
    Mr. Rivera. Well, you really read my mind in terms of that 
distinction between the GMP and a fishery management plan. So 
let me ask you specifically: I believe in the memorandum of 
understanding which the Service has with the Florida Fish and 
Wildlife Conservation Commission, all fisheries within the park 
will be governed cooperatively with the Florida Fish and 
Wildlife Commission in a fishery management plan, not a general 
management plan.
    So why is the Park Service placing fishery management 
issues in the general management plan and not the fishery 
management plan? And how is that consistent with the MOU?
    Mr. Frost. Well, again, as I stated previously, the general 
management plan is looking at visitor use primarily. And as 
sort of a side thing for visitor use, trying to enhance those 
recreational opportunities, you are going to get some fisheries 
benefit. The GMP is not trying to regulate a fisheries there. 
It is really about, how do we operate a park to provide a broad 
opportunity for all visitors--not just one subset of visitors 
but all visitors--an opportunity to experience the park the way 
it was envisioned when it was created back in the 1960s?
    Mr. Rivera. Well, let me ask Mr. Wright. In Mr. Popham's 
statement in support of the park's proposals, he brings up the 
protected areas in Dry Tortugas National Park, which you 
mentioned earlier. I guess, first, I would like you to comment 
on Mr. Frost's comments just now but also--I know you mentioned 
it earlier--but briefly compare and contrast Dry Tortugas 
National Park and Biscayne National Park.
    Mr. Wright. Let me take the latter first, if I can, Mr. 
Chairman. First of all, there is no scientific basis for the 
almost intuitive assumption, if you will, that by closing an 
area within the Biscayne National Park that there are going to 
be, quote, big fish and that big fish will migrate from that 
and will enhance fishing opportunities surrounding that area. 
There simply is no--I am not saying that that is an incorrect 
statement. I am saying that I have consulted with my staff, and 
I am being told there is no scientific basis to make that 
statement. And, of course, then there is no scientific basis 
for the closure that is based on that assumption.
    With regard to taking an area and enhancing the 
experience----
    Mr. Rivera. Before you go there, can you also briefly 
describe the consultation the Service had with the Commission 
on Dry Tortugas and what you were just talking about, the 
comparison between Dry Tortugas and Biscayne National Park? Was 
there any consultation?
    Mr. Wright. There was a consultation, and we supported 
that. That is a completely different ecosystem. It was impacted 
and was to benefit in that closure, if you will, because of the 
very distinct stresses upon it. But it is remote from 
activities. As I indicate, it is 200 square miles as opposed to 
16 square miles. There were a lot of reasons why, based on the 
science and based on the recommendation of our scientists, we 
did support that.
    But we do not support this one. And we do not believe that 
there should be a closure denying anglers an opportunity; and, 
if you will, at their expense providing an opportunity for 
others. We have found, the Commission has found that the 
resource can be managed effectively and access can be granted 
to all persons but not necessarily to exclusive groups.
    Mr. Rivera. And did you want to comment at all on any of 
the earlier comments from Mr. Frost on the use?
    Mr. Wright. Well, on the use--well, on the use issue, that 
is what I was speaking to, Congressman. We, as a Commission, 
regulate fisheries and have historically regulated them while 
providing the most protection with the least regulation. It is 
my belief as a commissioner--and I speak for my Commission and 
for our staff--that there are many other successful tools in 
our toolbox to regulate this area in consultation with the Park 
Service for the goals that they claim they want to achieve 
without leaping directly to the most draconian measure, which 
is a closure of use or limitation of use.
    Mr. Bishop. Mr. Frost, have you consulted with the Florida 
Fish and Wildlife out at Biscayne National Park? And how is 
their input incorporated?
    Mr. Frost. Yes. I know that our superintendent and our 
regional director just met recently with staff from the Florida 
Fish and Game Commission. And the bottom line is we need the 
State Fish and Game agencies to work closely with us. And we 
want to continue to reach out to the Commission and to the 
staff to continue the dialogue.
    The thing we have to remember is we haven't made a 
decision. This is a proposal. We are continuing to have those 
discussions. We want to have additional discussions before the 
plan becomes final. So we absolutely have reached out and we 
are going to continue to reach out before the plan becomes 
finalized later this year.
    Mr. Rivera. Let me go directly there to these proposals. I 
see in alternatives 3 and 5, you included a permit zone in a 
northwest portion of the park. My understanding is that anglers 
would have been required to purchase a permit to fish in those 
waters. Instead of a marine reserve, would the Service consider 
this proposal for the reserve no-take zones in alternative 4? 
First question. And perhaps ban fishing for specific species 
seasonally during their spawning periods? I have been told that 
enforcement has been a problem in the past. Perhaps funds 
generated from the permits or fines or infractions can be used 
for increased patrols and inspectors, so have less intrusive 
proposals like this that have been studied and evaluated?
    Mr. Frost. Absolutely. I mean, as you stated in the other 
alternatives, we haven't evaluated those alternatives. And we 
have to be a little bit careful because we don't want to be 
predecisional and sort of mess up the NEPA process. But we have 
heard all the comments and we are considering them. So 
absolutely, we are going to look at those options and see how 
we can make the best decision possible in the final general 
management plan.
    Mr. Rivera. In meetings I have had with Parks Director Mark 
Lewis, I have been told that anglers do not even fish in the 
proposed marine preserve. So can you provide the Committee, 
within the next week, with any surveys or studies the Service 
has done to come to this determination and the methodology of 
that survey?
    Mr. Frost. We will provide you whatever we have, 
absolutely.
    Mr. Rivera. Let me ask Mr. Crook, since you gave your 
testimony earlier, any thoughts that you may have regarding 
anything you have heard today from the Park Service or anyone 
else?
    Mr. Crook. Yes. I would like to make sort of a summary 
comment. As to the use of the park, Superintendent Mark Lewis 
mentions 15 to 20 moorings with no anchoring. This is so far 
away from the current use that enhanced use of the park and the 
benefits that it provides don't seem to be consistent.
    In the case of the coral reefs, we have to look at the 
numerous threats that are happening all over the world. And it 
is not just angling. We have disease. We have warming, 
acidification, and we have environmental issues that took place 
30, 40, 50 years ago that are probably a major effect on the 
fisheries over the last 10, 20 years.
    When I was growing up, about a mile north of the Feather 
Beds Banks, you could no longer see the bottom of the bay. 
Today you can see the bottom of the bay almost to the 
Rickenbacker Causeway. The water cleanliness, the water quality 
is a major issue as to what happened to the park.
    I contend that when the University of Miami in 1999 said 
fish stocks were down, I would not dispute that. And I say this 
from a common user's point of view, not a scientist, not an 
enforcement agency or some fisheries commission, but from our 
customers, the people that are with us. The quality of the 
water today is better. That will start to generate a habitat. 
The grass beds are better in the north bay. It will improve the 
habitat that is in the park. And over time--and I can talk 
almost to an angler, to a charter boat guy, and probably to 
most law enforcement, there is better fishery today than there 
was 10 or 15 years ago.
    There are issues, and we can get into species specifics, 
that will tell you there are exceptions to what I have just 
said. And I would not deny that. But that falls back to fish 
management. It is an ongoing effort that needs to be made. Just 
stripping access and making closures is not the answer.
    The economic impact--I was talking to a charter boat guy. 
If we start making closures, the amount of dollars that they 
generate, it doesn't just go to the chapter captain, the 
charter boat. It goes to the suppliers of products he needs, it 
goes to his crew who earn livelihoods from it, the people he 
buys stuff, there are livelihoods at stake.
    So to date, the fishing establishments in Miami have 
decreased severely over the last 5 years under current economic 
conditions. If we further reduce the economic value which 
fishing brings to South Florida, we are going to affect more 
livelihoods.
    Mr. Rivera. Thank you. Thank you very much. Mr. Curlett, do 
you have any final thoughts?
    Mr. Curlett. Congressman Rivera, if I might, two things. 
You hit on the Fishery Management Plan Working Group and not 
coming to a decision to close, have an RNA. They didn't have a 
decision not to have one. In fact, we were told we could not 
have one under that MOU. We were scheduled for five meetings. 
We had to have a sixth meeting because we started pushing on 
that. I said ``we.'' The group did. The stakeholders did, from 
Bill Curtis who had fished that resource for 60 years and would 
tell you that there is nowhere near the fish there today that 
there were 60 years ago. And we had a sixth meeting and we were 
that many votes away from agreeing to an 8,500-acre RNA in the 
park. So the Fisheries Management Group did kick it around.
    Second, it is in your testimony that there are other tools 
in the box to use. The fishery was depleted, the last 
scientific report in 1999; where the heck are the tools? The 
tools have been there, the same tools. What tools have been 
used to bring it back? Once again, this is a patient on life 
support. Giving it a couple aspirins and sending it home and 
saying, we will look at you tomorrow, is not going to work. I 
fish there. I live within a 5-mile ride of the Carysfort no-
take zone. I see the success story there. I am a recreational 
angler.
    Mr. Rivera. Thank you very much. I want to thank the 
Chairman for holding this hearing on a very important issue 
that affects the real lives of a lot of people, both in North 
Carolina and in Florida and, really, for the Nation.
    I think Congresswoman Ros-Lehtinen, Congressman Diaz-
Balart, Congressman Jones, were very prescient in their 
comments to note the real impact that this has on our fisheries 
and on our economy.
    I want to thank the panelists as well. Thank all of you for 
being here and for your time and effort. I look forward to 
receiving information from the Park Service as we go forward.
    I would like to note that members of the Subcommittee may 
have additional questions for the witnesses, and we ask that 
you please respond to these in writing. The hearing record will 
be open for 10 days to receive these responses.
    Mr. Rivera. And if there is no further business, without 
objection, the Subcommittee stands adjourned.
    [Whereupon, at 10:55 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

Documents Submitted for the Record for H.R. 4094
    The following documents submitted by The Honorable Walter B. Jones, 
Jr., in support of H.R. 4094 have been retained in the Committee's 
official files.
    <bullet>  AFFIDAVIT, State of North Carolina, County of Dare
    <bullet>  Allegro, Peter, Secretary, Rhode Island Mobile Sportsmen 
Inc., Letter submitted for the record
    <bullet>  American Sportfishing Association, B.A.S.S. LLC, Center 
for Coastal Conservation, Coastal Conservation Association, 
Congressional Sportsmen's Foundation, and International Game Fish 
Association, Letter submitted for the record
    <bullet>  Conk, Gary L., Director, New Jersey Beach Buggy 
Association, Letter submitted for the record
    <bullet>  Correia, Bill, Vice President, Massachusetts Beach Buggy 
Association, Letter submitted for the record
    <bullet>  Eakes, Bob, President, Red Drum Tackle Shop, Inc., Letter 
submitted for the record
    <bullet>  Gilliland, Reb, New Jersey Beach Buggy Association, 
Letter submitted for the record
    <bullet>  Hardham, Lawrence, Letter submitted for the record
    <bullet>  Hyde County, North Carolina, Resolution submitted for the 
record
    <bullet>  Joyner, David K., President, North Carolina Beach Buggy 
Association, Letter submitted for the record
    <bullet>  Judge, Warren C., Chairman, County of Dare Board of 
Commissioners, Letter submitted for the record
    <bullet>  Spear, Hon. Timothy L., State Representative, North 
Carolina General Assembly, Letter submitted for the record
    <bullet>  Taylor, Douglas A., Secretary, Jersey Devils Fish Club, 
Letter submitted for the record
    <bullet>  White, Hon. Stan M., State Senator, North Carolina 
General Assembly, Letter submitted for the record
Documents submitted for the record for the Oversight Hearing on 
        ``Access Denied: Turning Away Visitors to National Parks''
    <bullet>  Angers, Jefferson, Center for Coastal Conservation, 
Letter submitted for the record
    <bullet>  Curlett, John, North Key Largo, Florida, Letter submitted 
for the record
    <bullet>  Davidson, Tom, Bonefish and Tarpon Trust, Letter 
submitted for the record
    <bullet>  Liederman, Carl, Capt. Harry's Fishing Supply Co., Inc., 
Letter submitted for the record
    <bullet>  Neber, Joe, Contender Boats, Inc., Letter submitted for 
the record
    <bullet>  Nelson, Hon. Bill and Hon. Marco Rubio, U.S. Senators, 
Letter to Secretary of the Interior Ken Salazar submitted for the 
record
    <bullet>  Popham, Bruce, Marathon Boat Yard Marine Center, Letter 
submitted for the record
    <bullet>  South Beach Dive and Surf, Grove Scuba, Aquatic 
Explorers, Underwater Archaeology Program, Tennessee Aquatic Project 
and Development Group, National Association of Black Scuba Divers, 
History of Diving Museum, Tarpoon Lagoon Dive Center, and Beneath The 
Sea, Inc., Letter submitted for the record
    <bullet>  Southwick, Rob, Southwick Association, Letter submitted 
for the record
    <bullet>  Waters, Don M., Sr., Palmetto Bay, Florida, Letter 
submitted for the record
    <bullet>  Wickstrom, Karl, Florida Sportsman, Letter submitted for 
the record
    <bullet>  Youngman, Julia F., Southern Environmental Law Center, 
Letter, statement, fact sheet and photographs submitted for the record

                                 <all>

</pre></body></html>
